<html>
<title> - [H.A.S.C. No. 113-32] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     
 
                         [H.A.S.C. No. 113-32] 
                                HEARING 
                                   ON 
                   NATIONAL DEFENSE AUTHORIZATION ACT 
                          FOR FISCAL YEAR 2014 
                                  AND 
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                         FISCAL YEAR 2014 NAVY,

                       MARINE CORPS AND AIR FORCE

                        COMBAT AVIATION PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 17, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
80-761                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
MARTHA ROBY, Alabama                 RON BARBER, Arizona
PAUL COOK, California                DANIEL B. MAFFEI, New York
JIM BRIDENSTINE, Oklahoma            JOAQUIN CASTRO, Texas
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             WILLIAM L. ENYART, Illinois
MAC THORNBERRY, Texas                PETE P. GALLEGO, Texas
WALTER B. JONES, North Carolina      MARC A. VEASEY, Texas
ROB BISHOP, Utah
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, April 17, 2013, Fiscal Year 2014 Navy, Marine Corps 
  and Air Force Combat Aviation Programs.........................     1

Appendix:

Wednesday, April 17, 2013........................................    33
                              ----------                              

                       WEDNESDAY, APRIL 17, 2013
   FISCAL YEAR 2014 NAVY, MARINE CORPS AND AIR FORCE COMBAT AVIATION 
                                PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Davis, Lt Gen Charles R., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition; and Lt 
  Gen Burt Field, USAF, Deputy Chief of Staff, Operations, Plans 
  and Requirements...............................................     7
Skinner, VADM W. Mark, USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition); LtGen Robert E. Schmidle, USMC, Deputy Commandant 
  of the Marine Corps for Aviation; and RADM Bill Moran, USN, 
  Director of the Air Warfare Division...........................     5
Sullivan, Michael J., Director of Acquisition and Sourcing, U.S. 
  Government Accountability Office...............................     3

                                APPENDIX

Prepared Statements:

    Davis, Lt Gen Charles R., joint with Lt Gen Burt Field.......   102
    Sanchez, Hon. Loretta........................................    37
    Skinner, VADM W. Mark, joint with LtGen Robert E. Schmidle 
      and RADM Bill Moran........................................    57
    Sullivan, Michael J..........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   129
    Mr. McIntyre.................................................   129
    Mr. Veasey...................................................   131

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   146
    Mr. LoBiondo.................................................   137
    Mr. Thornberry...............................................   135
    Mr. Turner...................................................   140
    Mr. Veasey...................................................   147



   FISCAL YEAR 2014 NAVY, MARINE CORPS AND AIR FORCE COMBAT AVIATION 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                         Washington, DC, Wednesday, April 17, 2013.
    The subcommittee met, pursuant to call, at 2:24 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee meets today to receive testimony on the Navy, 
Marine Corps and Air Force budget requests for the combat 
aircraft programs for fiscal year 2014.
    We welcome our distinguished panel of witnesses. We have 
Mr. Michael Sullivan, Director of Acquisitions and Sourcing in 
Government Accountability Office.
    We have Vice Admiral W.M. Skinner, Principal Military 
Deputy of the Assistant Secretary of the Navy, Research, 
Development and Acquisition.
    We have Lieutenant General Robert Ron Schmidle, Deputy 
Commandant of the Marine Corps for Aviation. And we have Rear 
Admiral Bill Moran, Director of the Air War Division of the 
U.S. Navy.
    We have Lieutenant General Burton Field, Air Force Deputy 
Chief of Staff, Operations, Plans and Requirements. And 
Lieutenant General Charles Davis, Military Deputy, Office of 
the Assistant Secretary of the Air Force for Acquisition.
    All of our witnesses today have very short titles. I thank 
you for your service and look forward to your testimony today.
    We have a number of issues to cover today, but my opening 
remarks will focus on the F-35 [Lightning II Joint Strike 
Fighter] and Strike Fighter inventories. The F-35, a fifth-
generation fighter, is required to achieve the effects 
necessary to win an integrated anti-access and area-denial 
environment. So I was encouraged to note that the F-35 program 
was fully funded in both the research and development and the 
procurement accounts for fiscal year 2014, as well as the 
future years defense program. The F-35 did well in testing last 
year, but with about one-third of flight testing completed, 
much testing remains to demonstrate and verify its
performance.
    Going forward, F-35 software development is of particular 
concern. While software management practices have improved, 
significant challenges lie ahead as software integration and 
testing continue to lag behind plans. This is an area that the 
subcommittee continues to watch to ensure that the final 
software block of the development phase is completely on 
schedule.
    While the capability of the F-35 is needed for the future, 
the Air Force, Navy, and Marine Corps cannot ignore the 
modernization and life-extension upgrades for their legacy 
fleets of AV-8Bs [Harrier II vertical/short takeoff and landing 
(V/STOL) ground-attack aircraft], F/A-18s [Hornet fighter jet], 
A-10s [Thunderbolt II close air support aircraft], F-15s [Eagle 
fighter jet], and F-16s [Fighting Falcon fighter jet]. These 
critical upgrades are required to maintain the capability and 
capacity necessary to execute the national military strategy.
    I was encouraged to note that the Navy's Strike Fighter 
shortfall was reduced from 56 last year to 18 this year as a 
result of increased F/A-18E/F [Super Hornet fighter jet] 
procurement and expected lower utilization rates of legacy 
fighters.
    Based on the vague defense strategic planning guidance 
announced last year, the Air Force, for a second year in a row, 
is not reporting a projected Strike Fighter shortfall through 
2030. These projections are based on our legacy fleets 
receiving the modifications made during depot availabilities.
    Just last week, the Air Force announced that it planned to 
ground 17 combat squadrons for the rest of the fiscal year 
because the funds required to operate and maintain these 
squadrons are no longer available due to sequestration. We 
don't yet know what the long-term effects sequestration will 
have on Navy, Marine Corps, and Air Force Strike Fighter 
modernization to include inventories. If these arbitrary cuts 
also affect Air Force and Navy's ability to make the necessary 
capability and life extension modifications, decreased Strike 
Fighter inventories could result in risks that I am not willing 
to accept.
    Before we begin, I would like to welcome all of our panel 
members. And I would like to say that as we do have our 
discussions today, I would appreciate your information and 
insight as to the effects of sequestration. Now, as I am fond 
in saying in these hearings, I voted against this mess, and I 
voted against this mess because I believed it would happen, but 
one of the ways that we have been, I think, shackled in this is 
that the Department of Defense had been previously restrained 
of telling the American public and even this committee and the 
subcommittees what the effects of sequestration would be.
    And so since we had this long term of sequestration without 
detailed substance to its effects, we have been inhibited in 
our ability, as the DOD [Department of Defense] has, to 
advocate for sequestration to be set aside. Just yesterday we 
had a hearing where the commandant of the Marine Corps 
indicated that from our traditional military policy objectives 
of being able to win in two major combat areas, that even the 
new strategy that the President's articulated of merely one 
major contingency operation, that the Marine Corps would find 
it difficult to prevail, and even won.
    We need to have that information so we can effectively make 
the argument that it should be offset. And I think today's 
hearing, regardless of the question that you are asked, if you 
could give us some information, insight as to what you foresee 
sequestration affecting, I would appreciate it.
    When we talked to the Navy's and Marine Corps' budget 
yesterday, they acknowledged that the budget they delivered did 
not take into consideration sequestration. So the follow-on 
questions had to address that. I would appreciate today if you 
would just, on your own, digress into the effects of 
sequestration as it would affect your answer if it is 
continued, because we need that information to offset it.
    We are going to then begin with our panel members unless my 
ranking member would like to make a comment, and we could 
always return back to her statement if she would like. With 
that, we will begin, then, with--would you like to make a 
comment or would you like to return to a comment later?

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. I would like to just keep this short and say 
that we are very interested in the budget process. And I will 
submit my opening statement for the record so that we can hear 
our panel.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 37.]
    Mr. Turner. Excellent. I appreciate the dedication of my 
ranking member and her bipartisan spirit also.
    All right. Turning to Michael Sullivan, if you would begin.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
        SOURCING, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman, Ms. Sanchez, members 
of the committee. I am pleased to be here today to discuss the 
status of the F-35 Lightning II Fighter this afternoon. My 
remarks and the statement that I have put forward is limited to 
the F-35 and doesn't go into more of the other general tactical 
air issues.
    I have submitted a written statement for the record, and I 
would like to take a few minutes now to hit the high points of 
our work on this program regarding where it has been, where it 
is now, and what may lie ahead.
    The F-35 acquisition program began in 2001 with an 
estimated cost of about $231 billion. And today, 12 years 
later, the program is estimated to cost about $390 billion. The 
average cost to buy a single F-35 aircraft since the beginning 
in 2001 has about doubled from an estimated $69 million in 2001 
to $137 million today.
    Needless to say, the program had significant risk when it 
started, and that risk has translated into this cost growth. 
There are many reasons for that risk, but chief among them are 
poorly understood requirements at the beginning, and 
overlapping schedules for testing and buying F-35s.
    In the past 2 years, the program appears to have stabilized 
to some degree. Since 2010, when the program had a Nunn-McCurdy 
breach, the Department of Defense and all the Services came in 
to the program and restructured it and did some very good 
things, in our opinion, about adding reasonable costs and 
limiting requirements and adding schedule and some manpower to 
the program.
    So since then, since that restructuring took place, the 
program has now delivered all 14 developmental aircraft. They 
have all been delivered to the test program. More test flights 
are taking place on a daily basis on the program. Procurement 
aircraft deliveries, while still not meeting original delivery 
schedules from the original program, have picked up and have 
closed the schedule gap significantly, so there is a lot more 
aircraft being delivered today. And there is additional 
progress being made in one of the very high risk areas, which 
is software management.
    At this point in time, the Government has invested about 
$28 billion to buy 121 aircraft, and development flight testing 
is now about a third complete. This overlap between testing and 
production represents additional cost, in that design changes 
to the aircraft that come from flight testing must be reworked 
into the aircraft already produced. So there are retrofit 
costs. To date, the cost of that rework on the first 58 
aircraft that have come off the production line is about $900 
million. That adds about $15.5 million to the cost of each of 
these 58 aircraft. About $830 million more of future rework is 
planned as a result of concurrent testing and production.
    The program still has tremendous challenges ahead, even 
though it seems to have stabilized in the last couple of years. 
For example, there are still significant risks with the helmet-
mounted display system, the software development to deliver 
Block 3 capability, which is the full-up integrated warfighting 
capability for the aircraft, still has a long way to go, and 
there is continuing overlap between flight test and production.
    Most importantly, probably, the future annual funding needs 
of the program represent the most significant risks moving 
forward. This program will require about $12 billion on average 
over the next 15 to 20 years, and that is quite a bit of money 
for the Congress to have to appropriate.
    The imperative now is to demonstrate that the F-35 program 
can effectively perform against costs and schedule targets in 
the new baseline and deliver on the promises made. Until then, 
it will continue to be difficult for the United States and all 
of our international partners, there are eight international 
partners, to plan, prioritize and budget for the future, retire 
aging aircraft, as we will hear more about today, and establish 
basing plans with a support infrastructure.
    Achieving affordability and annual funding requirements and 
in addition to that, to life-cycle operating and support costs 
will, in large part, determine how many aircrafts a warfighter 
can ultimately acquire, sustain, and have available for combat.
    That is the end of my statement. Thank you very much. I 
will take questions when the time comes.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 39.]
    Mr. Turner. Thank you, Mr. Sullivan. Turning to Admiral
Skinner.

  STATEMENTS OF VADM W. MARK SKINNER, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
DEVELOPMENT, AND ACQUISITION); LTGEN ROBERT E. SCHMIDLE, USMC, 
 DEPUTY COMMANDANT OF THE MARINE CORPS FOR AVIATION; AND RADM 
     BILL MORAN, USN, DIRECTOR OF THE AIR WARFARE DIVISION

    Admiral Skinner. Chairman Turner, Ranking Member Sanchez, 
distinguished members of the subcommittee, thanks for the 
opportunity to appear before you today to discuss the 
Department of the Navy's aviation programs.
    Joining me today are Lieutenant General Robert Schmidle, 
Deputy Commandant for Marine Aviation, and Rear Admiral Bill 
Moran, Director of Air Warfare for the United States Navy.
    On behalf of us all, I thank you and all members for your 
steadfast support to our soldiers, sailors, airmen, marines, 
and coastguardsmen who are meeting the Nation's commitments 
around the world.
    With the permission of the subcommittee, I propose to 
provide a brief statement and submit a separate formal 
statement for the record.
    The Navy Marine Corps team is forward-deployed and forward-
engaged, performing missions around the globe. Today naval 
aviation components are in the skies of Afghanistan protecting 
troops and Afghan civilians on the ground, providing 
intelligence, surveillance, and reconnaissance off the coast of 
Korea, over the Sea of Japan, the Persian Gulf, and the Horn of 
Africa, and they are providing maritime security along the 
world's vital sea lanes from which the United States and our 
trading partner economies can prosper, conducting antipiracy 
and drug interdiction patrols, and supporting global 
partnerships to strengthen ties to our allies and friends, all 
the while standing as a force of deterrence to those who would 
do harm to our Nation or our Nation's interests. And while our 
sailors and marines are doing all of this and more, they are 
also training for their next deployment or the next operation.
    In support of the defense strategic guidance, we are 
developing and recapitalizing to support the President and the 
Secretary of Defense's strategic priorities to rebalance to the 
Pacific to ensure we provide the capability and the capacity to 
maintain an important presence in this region today and for the 
foreseeable future.
    We continue to assess and reshape our naval aviation plan 
to reflect the priorities of this defense strategy with the 
reality of fact-of-life, topline reductions consistent with the 
Budget Control Act of 2011. As such, this year's aviation and 
strike weapons plan strikes a balance between capacity, 
capability, affordability, and the maintainability of the 
industrial base.
    To fulfill our Nation's commitments and strategic 
priorities, the Department of the Navy's 2014 aviation budget 
request includes funding for research and development and 
procurement of 165 aircraft, and 3,505 strike weapons.
    Selected specific items include continued investment in 
fifth-generation F-35 Joint Strike Fighter aircraft to provide 
multimission capability across the full spectrum of conflict; 
new carrier-based unmanned air system capabilities; the CH-53K 
[Super Stallion cargo helicopter] heavy-lift aircraft; and all-
weather moving target capability strike weapons, including 
procurement of EA-18G [Growler] electronic attack aircraft, P8 
[Poseidon] multimission maritime aircraft, the MV-22 [Osprey] 
assault aircraft, tactical Tomahawk cruise missiles, and 
capability improvements to the
F/A-18 Super Hornets, and air-to-air missiles, and 
modernization of our attack and utility rotary wing aircraft.
    We have important work to do to close out your capability 
gaps and risks. In doing so, however, we are working to deliver 
the full capability and capacity that our warfighter needs in 
an affordable manner.
    The Secretary of the Navy remains strongly committed to 
investing in the required aviation and strike weapons programs 
to support our national priorities, and we have placed that 
commitment to work over the last year with the delivery of more 
than 200 tactical rotary wing and unmanned aircraft, but we 
recognize that it is not possible to simply buy our way to 
recapitalizing our force.
    To achieve our recapitalization goals, we are continually 
focusing on improving affordability in all naval aviation 
programs. For example, we are increasing implementation of new 
cost-reduction initiatives, like competition and early standup 
of depot maintenance. We are striving to use multiyear 
procurement strategies, strengthening an acquisition workforce 
culture to ensure that we provide the best return on investment 
and be the best possible stewards of the taxpayers' money.
    Mr. Chairman, the strength of our naval aviation force is 
also closely coupled with our naval aviation industrial base. 
Over and over again, naval aviation has shown to be a critical 
element of the Nation's global reach, global presence, and when 
called upon, the tip of the Nation's interdiction force. We 
recognize that we have been successful in executing our duties, 
not only because of our sailors and marines, but because of our 
civilian workforce and the aviation industrial base.
    However, one of the key challenges to our future aviation 
programs, and therefore to elements of that same industrial 
base, is the increasing cost of development and procurement. To 
this end, the Department of the Navy is investing in design for 
affordability, requiring the use of open architecture systems 
where applicable, employing fixed price contracts to control 
cost at production, and limiting disruptive changes to 
contracts.
    Ultimately we recognize that as we balance requirements, 
manage the increasing pressure to our topline, and factor in 
industrial base considerations, it is ever more important that 
our naval aviation programs closely align with not only with 
the priorities outlined in the new defense strategy, but the 
Government and industry continues to work together to increase 
efficiencies and improve affordability to support current force 
and help us build the future force of naval aviation.
    Mr. Chairman, thank you once again for the opportunity to 
appear before your subcommittee today, and me and my colleagues 
look forward to answering your questions.
    [The joint prepared statement of Admiral Skinner, General 
Schmidle, and Admiral Moran can be found in the Appendix on 
page 57.]
    Mr. Turner. Great. Thank you. We will turn next to General 
Davis for his statement. And for those of you who are not 
speaking about the written statements, you, of course, will be 
responding to questions. I will close the hearing, also asking 
if there are any closing remarks, so if as the hearing is 
proceeding, if there are things that you think of that you 
would like to add, at the end, you will have an opportunity to 
provide those for the record.
    General Davis.

 STATEMENT OF LT GEN CHARLES R. DAVIS, USAF, MILITARY DEPUTY, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
   ACQUISITION; AND LT GEN BURT FIELD, USAF, DEPUTY CHIEF OF 
           STAFF, OPERATIONS, PLANS AND REQUIREMENTS

    General Davis. Chairman Turner, Ranking Member Sanchez, and 
members for the subcommittee, thank you for very much for this 
opportunity. And I stand before you today reminding everybody 
that our Air Force proudly provides you the ability--your Air 
Force provides you the ability to surveil and if required, 
strike any spot on this planet if required at any time, while 
defending our borders and protecting our allies, and we are 
very much committed to that mission.
    Although as we look in this environment of fiscal 
uncertainty, our focus remains on our five core missions: air 
and space superiority; intelligence, surveillance and 
reconnaissance; rapid global mobility; global strike; command 
and control. And that is the means by which we deliver global 
reach, global power, and global vigilance.
    In 2012, your Air Force flew global precision tac-aircraft 
that accomplished over 28,000 sorties and 41,000 hours in 
support of overseas contingency operations. In support of these 
operations, our intelligence, surveillance, and reconnaissance 
airmen provided intelligence that shaped combat plans for 33 
named operations, enabling the removal of 700 enemy combatants 
from the fight, and built awareness for our coalition forces 
and over 250 troops in contact engagements.
    Our special operations personnel executed over 1,600 strike 
missions and 7,700 specialized mobility missions.
    On the home front, Air Force fighters, air refuelers and 
early warning aircraft have flown almost 64,000 total sorties 
supporting Operation Noble Eagle since September 11, 2001.
    As a testament to the capability of our total force, the 
National Guard and Air Reserve have flown more than 65 percent 
of these Operation Noble Eagle sorties, with the Air National 
Guard currently operating 17 of our 18 airspace control alert 
sites across the United States.
    Our fiscal year 2014 budget attempts to--our request 
attempts to retain the critical force structure and maintains 
the Air Force ability to rapidly respond to global demands. It 
is involved quite intricately from a concerted effort to 
balance risk, modernization, and force structure reductions 
with a commitment to readiness and taking care of our people.
    There is still a considerable uncertainty in the fiscal 
year 2014 Air Force topline funding level. The fiscal year 2014 
budget will not reverse the damage done by the fiscal year 2013 
sequestration that Chairman Turner alluded to. Recovering and 
warfighting capability, improving readiness requires at least a 
reduction in OPSTEMPO [Operations Tempo] or additional 
resources or a combination of the both.
    Now, recently in their posture hearing, our Chief and 
Secretary did a good job basically going over the very specific 
impacts of sequestration. I will cover them at the top level, 
but it is a reminder that reduced flying hours have and will 
cause harm to units that have had to cease flying operations 
and may result in severe rapid and long-term unit combat 
readiness degradations.
    Cuts to Air Force modernization programs will, over time, 
cost more taxpayer dollars to rectify the contract restructures 
and program inefficiencies, the increase in unit cost and the 
delay in delivery of capabilities to the warfighter.
    In spite of these ongoing budget concerns, however, many of 
our fighters and weapons do see some enhancements as a result 
of the fiscal year 2014 budget. These include the A-10, F-15, 
F-16, F-22 [Raptor fighter jet], and AMRAAM [Advanced Medium-
Range Air-to-Air Missile]. For example, we will modernize a 
portion of our
F-16 and F-15 floats with advanced radars, countermeasures and 
situational awareness. But I have to caution you on how we use 
the term ``modernization'' and ``investment accounts'' in this 
context. The systems that we are putting on these weapons and 
weapons systems are, in many ways, just bringing in the 
capabilities and technologies that have been developed as much 
as 10 years ago, and in some cases, they have been fielded that 
long. So we are really just bringing a lot of these airplanes 
as they currently exist up to the current state of the art of 
capability to match current threats with very little growth in 
the ability to handle future demands.
    More troubling to me is that roughly half of our 
modernization budget today has to go to maintain just the 
current performance levels of our fighter fleet and really adds 
no new combat capability.
    Going forward, I have to worry about what the budgets and 
the outyear budget numbers will do to our ability to continue 
to ramp up our production on F-35 and replace some of these 
aging airplanes. But as we navigate the uncertain way ahead to 
mitigate risk in critical areas like readiness, force structure 
modernization, we will continue to work with Congress to 
develop executable
options.
    Personally, I worry that unresolved budget issues will 
threaten our ability to recapitalize our aging fighter and 
bomber fleets. I think we all need to be mindful of one fact, 
and that is that one nation that plays very prominently in our 
defense strategy recently flew two new stealth aircraft within 
a 22-month period. In robust defense budget times, this took us 
over 9 years.
    Nonetheless, our objectives are to remain as steady as 
possible today and set a course toward full-spectrum readiness, 
preserve a highly responsive and scalable force, and overcome 
force structure modernization challenges in order that we 
continue to have your Air Force provide the Nation the world's 
most capable air power now and in the future. And I do look 
forward to your questions.
    [The joint prepared statement of General Davis and General 
Field can be found in the Appendix on page 102.]
    Mr. Turner. Thank you, General. I appreciate that very, 
very frank statement of--as we look to this issue in this 
hearing, we are not merely doing oversight of the status of the 
expenditure programs. We really are looking what had always 
been identified as a critical path to both maintain current 
capabilities and obtain future capabilities to respond to 
emerging threats and capabilities of adversaries, and the 
funding, both in sequestration and in reduced budgets, is 
disruptive of that. And I think your clarity that you are 
providing us is very important.
    And I am going to turn, General Schmidle, to you first. In 
your written testimony, page 8, there is a discussion of--the 
words are, the Marine Corps may experience elevated operational 
risk in 2020 as the predicted shortfalls come to fruition. And 
you identify that the Marine Corps may experience elevated 
operational risk in the 2020s if the predicted Strike Fighter 
shortfall comes to fruition.
    Please describe why you believe the Marine Corps faces this 
elevated operational risk and what the Department of the Navy 
is doing to mitigate those risks? And also, you know, as I was 
just saying, this doesn't just fall on the Navy. You are here 
in front of us as to what we need to be doing and what the 
Administration needs to be doing. In part, this hearing is to 
establish that record to show that we are at an operational 
risk and what needs to be done to ensure that we don't have a 
shortfall as you described. General.
    General Schmidle. So chairman, if I could, the shortfall in 
the outyears, in the Strike Fighter shortfall is an inventory 
shortfall. What is happening to us today, though, that is much 
closer is the shortfall that we have in terms of the numbers of 
airplanes that we actually have available for training on the 
flightline today.
    So as an example, in the F/A-18 community, we have 257 
airplanes in the Marine Corps. One hundred and two of those 
airplanes are what is called out-of-reporting status, in other 
words, they don't exist on the flightline. And with the advent 
of sequestration now, we are not going to be able to induct the 
numbers of airplanes in the third and fourth quarter through 
the depot so that we can do the high flight hour inspections so 
that we can keep the airplanes flying.
    And what that is going to translate to is beginning in 
January of 2014, our nondeployed squadrons will now have as few 
as six airplanes available for training on the flightline. And 
what that means, of course, is obvious: The squadrons that are 
forward and that are going forward are going to have a full 
complement of airplanes, but the squadrons that are home and 
training will have fewer jets. And so you are either going to 
train pilots to a lower standard or you are going to overfly 
those airplanes, put more hours on them to train people, and 
then that is going to drive them into the high flight hour 
inspections again.
    Now, this year we have sufficient money to do the high 
flight hour inspections at 8,000 hours in order to get our F/A-
18s, our legacy fleet out to 10,000 hours, but any disruption 
in that, for instance, if the full effects of sequestration, 
what that will do is it slows down the throughput through the 
depot to do those inspections, and that will cause us to have 
less airplanes on the ramp when we get ready to--as we go 
forward in terms of trying to train.
    So the inventory shortfall that we mentioned in the 
statement in the outyears is clearly a challenge, but in the 
near term, we actually have a more near-term challenge, because 
we are trying to get our legacy F/A-18s through to the JSF, to 
the Joint Strike Fighter, transition as we go forward.
    We have similar problems with the AV-8 Harrier. It is not 
quite as significant. We are now going to fly that airplane to 
2030. We originally had planned on the end of its service life 
being in 2012. So we are having to--that airframe itself is in 
pretty good shape, but we are going to have to do modifications 
to the airplane, avionics modifications in order for the 
airplane to remain survivable and relevant as we go forward.
    Mr. Turner. Thank you, General.
    General Davis, you mentioned in your written testimony that 
depot delays will require the grounding of some of the affected 
aircraft and that sequestration cuts to Air Force modernization 
will impact every one of the Air Force's investment programs, 
creating inefficiencies, raising unit costs, and delaying 
delivery of value capabilities to warfighters in the field. You 
also note that the fiscal year 2014 budget request does not 
enable full recovery of warfighting capability, capacity and 
readiness, and that additional resources will be required.
    What effects will sequestration have in the current fiscal 
year in the Air Force inventory, and what additional resources 
will be needed in fiscal year 2014 to make the fighter fleet 
whole again?
    General Davis. Mr. Chairman, I will tell you that we are 
just beginning to try to figure out the effects of what is 
going to be imposed on our depots. We already know that we are 
about 60 aircraft and 30 engine inductions behind in that 
process. It is a mix across all the airframes, not just the 
fighters.
    Trying to buy that back is going to take more than a year. 
So those airframes that will be affected will not come back in 
2014. I mean, the workforce, the throughput, the capability 
just doesn't exist, so it will have to come back over time. 
When we get through this, I would like to just let my partner, 
General Field, here talk a little bit about how they will 
attempt to do something with the readiness in the fighter 
squadrons, but specifically, as we talk about in the 
sequestration impacts, while we were able to put significant 
funds against buying radars for F-15 Cs and Es, we had to 
decrease the quantities that we bought those particular radars 
at. That is increasing the unit cost. So that means those 
programs stretch out over at least a couple of years of 
increase to finish the programs on those two airplanes.
    As we look at what happens, we will probably delay the 
start of the F-16 Combat Avionics Performance Enhancement 
System, the CAPES program, as we look and see how much money we 
have to start that and how quickly we can ramp up the 
replacement of the radars on the F-16s.
    One thing that is very troubling is that we know that some 
portion of our fiscal year 2013 buy of F-35s will be cut. It is 
3 to 5 airplanes. We don't know. It will depend on negotiation 
status, it will depend on a lot of things as it plays out. So 
that right there starts, you know, at about a third of a 
squadron's worth of modernization that will be pushed off at 
least another year, and we don't know exactly what 2014 will go 
from there.
    So there is a spreading cut across all of our programs in 
terms of the modernization. And I will let General Field talk 
about what it takes just to buy back a little bit of that 
combat capability on the operational squadrons.
    General Field. Thank you. Based on the fiscal constraints 
that we are facing in fiscal year 2013, we have just decided to 
stop flying up to 13 combat Air Force squadrons. These are 
squadrons that are coded to go out and fight for the Nation's 
wars or be a presence across the globe as required.
    The reason that we ended up in that position is that we 
prioritized our commitments. We started with the commitments to 
Afghanistan; we looked at commander requirements, again 
starting with CENTCOM [U.S. Central Command] and PACOM [U.S. 
Pacific Command]. We tried to keep fully funded the forces in 
Korea, and as much as possible in Japan. And then we looked at 
all the commitments on a short notice to both of those 
theaters. We also maintained our commitment to support the 
French as they help the government of Mali in Africa. And then 
we are looking to maintain our training pipeline for our new 
and senior air crews. All of those are a big balancing act, and 
we are trying to prevent an unrecoverable situation in the 
outyears.
    The upshot of that is that we ended up essentially running 
out of money, and so that is why we had to stop flying those 13 
air squadrons. Some of those squadrons are currently deployed, 
either in Afghanistan or somewhere else around the globe. And 
they will come back. Four of them come back and they will stop 
flying as soon as they return home.
    The requirement to regain that readiness after a 6-months 
grounding is a little bit unknown, because we are definitely in 
uncharted waters. We have never before, in the middle of a 
fiscal year, stopped flying a third of our combat air forces 
because of some kind of money issue. So we will have a lot of 
work to do and catching up to do.
    It will take essentially a very dedicated and focused 
effort to come up with the right training plan to recover that 
readiness, it will take time and it will take resources. I 
promise you that we will put the focused effort into the 
recapitalization of that readiness, but we are going to need 
some assistance both within the Department of Defense and 
without on the time and the resources.
    Mr. Turner. Gentlemen, before I go into my last very quick 
question and hand it over to my ranking member, I just wanted 
to tell you that all of us on Capitol Hill are very aware of 
the personal effects that sequestration has. As we are 
listening to the effects on what are real and necessary 
capabilities that they are diminished, and we heard that in all 
the hearings. I have heard from General Wolfenbarger of 
Materiel Command at Wright-Patterson Air Force Base that 
frequently that the men and women who are in uniform and the 
civilian employees are not aware enough of the fact that their 
Members of Congress understand that they have kids in college, 
they have house payments to make, they have vacations that are 
being cancelled as a result of the effects of sequestration. So 
even as we talk about the programs today, I want you to know. 
And please tell those under your command and who you work with, 
that Congress is very aware of the personal effects.
    And I have one real quick question and I will hand it over 
to my ranking member, and that is, you know, you just told us 
the real and necessary capabilities of each of the areas of 
your operations will be affected by sequestration. There, I 
think, is a misnomer in Congress, and that is there is a belief 
that sequestration will actually result in savings, but the 
message I was hearing from each of you today and as evident in 
your written statements is that especially in the area of 
acquisitions, as we have decreased funding, we are actually 
probably going to, on the other side, have increased costs to 
achieve what are real and necessary modernizations or 
sustainment of capability.
    From your review of sequestration, I am going to ask, you 
know, all five of our Generals and Admirals today, could you 
please report, do you believe in what you are currently seeing 
in the implementation of sequestration if you assess that these 
reduced funding effects from sequestration will result in 
higher costs in the future. General.
    General Davis. Sir, they absolutely will. I mean, you just 
go back to the depot and the expense of trying to buy back 
those airplanes that we have to put back on the ramp, the price 
of that will go up, we will have to lay on additional 
workforce, additional something to get there. Every one of 
these items that I mentioned that we are not going to buy for 
the airplanes this year, whether it is an
F-35 or radar for the F-15, when we decrease just one or two 
out of a lot buy, every unit in that lot goes up; a very 
inefficient price tag.
    So I am sure we could take for the record and get you an 
answer back if we cut three or four or five or whatever the 
units are for F-35s coming out, what that will increase the 
unit lots, each airplane in that unit as we go from there.
    And I look at our programs, and we ask our programs to go 
through multiple restructuring drills as we tried to guess what 
the 2013 number was going to be and start preparing what the 
outyear numbers will be, the inefficiencies of the program is 
not being effectively managed and executed while they are out 
doing drills. I worry about that, and that is an unaccounted 
cost we haven't seen yet.
    Mr. Turner. General Field.
    General Field. Sir, I agree with General Davis. I think it 
will be increased cost. In addition, in terms of readiness, it 
will be either increased cost or increased time if we don't 
increase the cost to get back to the readiness levels that we 
would like. You have heard from both sides of me, from General 
Davis, General Schmidle, that the depot is a--in their working 
depots are going to be a big factor of that.
    We think that it is going to take more sorties to regain 
that readiness because of the 6 months of standing down from 
flying, and that is all dependent upon aircraft availability. 
And aircraft availability is dependent on how well the depots 
produce spare parts and the inspections required for our 
aircraft. And if that is reduced, then that backlog will just 
continue to grow.
    Mr. Turner. Thank you. Admiral Moran. And as you are moving 
to answer, please take General Davis's offer of providing 
additional record information for the record when you actually 
get that data as a standing question from our subcommittee that 
I would like each of you to undertake. Admiral.
    Admiral Moran. Yes, sir. Right. I completely agree with my 
colleagues from the Air Force. And I would only add that since 
sequestration spreads itself across multiple lines, in a test 
and--in the test programs, we are likely to see the effect of 
that to stretch out tests, which means delivery of capability 
later, which means you have got to carry your legacy platforms 
longer. So there is a multiple effect that occurs over time. 
That is all I have, sir.
    Mr. Turner. Thank you. General Schmidle.
    General Schmidle. For the record, just two quick things to 
pile on real quick. So with regard to the depot, one of the 
other concerns there, too, is the civilian workforce. Of 
course, most of the work that is being done, for instance on 
our airplanes is being done on the second and third shift, and 
those are the kinds of folks that there is discussion about--
you know, about the effect of sequestration on them.
    And the other point on the readiness piece, so you don't 
fall off the cliff in readiness overnight. It is sort of 
insidious. As the money starts to dry up and you become less 
and less ready and as we start to climb back out of that again, 
as General Field said, it is going to take us a while. And we 
are not quite sure how long, because, again, we have never been 
in a position where we have effectively gone down to those 
lower levels of readiness and then had to ramp back up again.
    Mr. Turner. Thank you. Admiral Skinner.
    Admiral Skinner. Mr. Chairman, I think it will certainly 
add inefficiency into the way we procure our aircraft. You 
know, the CNO [Chief of Naval Operations] testified yesterday 
that it is going to cost us $6.1 billion in Navy investment 
accounts, and certainly that is going to cost us some tails 
that we will probably have to move towards the end of the 
production line. My folks got their controls last week. They 
are going through it now and looking at how they are going to 
manage their programs, but certainly, this is the third time we 
have replanned 2013. Just the inefficiency of doing that is 
going to impact the cost, but I would agree with my colleagues, 
and that it will certainly increase our costs across the board.
    Mr. Turner. Well, Mr. Sullivan, my fellow Ohioan here, you 
might be prepared that you are probably going to get a request 
from our subcommittee to look at JAO [Joint Air Operations] 
capturing these increased costs from sequestration.
    To my ranking member, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your service to our country and for being before us today. 
I have a lot of questions on the F-35, because Mr. Turner and I 
have been taking a look pretty heavily at the F-35, but I think 
I want to start with Global Hawk [RQ-4 high-altitude unmanned 
surveillance aircraft]. I was pleased to see that the Air 
Force, General Davis, followed the fiscal year 2014 NDAA 
[National Defense Authorization Act] that requires continued 
funding for Global Hawk Block 30 operations, but it is unclear 
to me how the Air Force intends to follow the requirements of 
the fiscal year 2014 defense appropriations bill which directs 
the Air Force to use some old fiscal year 2012 funding, that is 
about $300 million or so, to procure three more Global Hawk 
Block 30 aircraft.
    How is the Air Force planning to address this issue? If 
buying three new aircraft doesn't make sense, is there a way to 
use it for upgrades or some other piece of Global Hawk 
operation aircraft? For example, we are told that the Global 
Hawk doesn't work well in poor weather. Is there some fix or 
upgrade or something that somebody's working on with respect to 
that?
    General Davis. Yes, ma'am. I think our Secretary said in 
his hearing that this has been a difficult discussion with 
Congress and he realizes that a lot of the Congress does not 
agree with the Air Force position that we have no firm 
requirements for the Global Hawk Block 30 airplanes past the 
end of the calendar year 2014, and that he fully intends to 
pursue avenues available to him to try to request to allow the 
United States Air Force to use that money for much higher 
priorities than Global Hawk Block 30. And we still have to work 
through that process and that will probably be a difficult 
conversation we have yet to go.
    So the premise that some of those dollars could be used to 
improve the capability of the airplane may be true, but I think 
our Air Force would come back and tell you that we have a few 
other higher priorities that we need to fix if we have the 
opportunity of putting that money against such things as 
bringing combat squadrons back up to combat readiness status or 
buying back some of the F-35 capability we lost. And we 
understand that that is going to be at the congressional 
discretion, but that is kind of our position right now.
    Ms. Sanchez. Okay. Thank you for that. With respect to the
F-35, when we were over with the contractor recently--well, let 
me begin by just relooking at some of these numbers.
    Mr. Sullivan, you said that in the beginning, we thought 
that the program would cost us $231 billion, but 12 years later 
it has cost us, or the estimate is $390 billion?
    Mr. Sullivan. Yes, ma'am.
    Ms. Sanchez. Okay. So we went from thinking that one 
airplane more or less would cost us about $69 million and now 
it is at $137 million on average, because----
    Mr. Sullivan. That is the average across----
    Ms. Sanchez. Depending on the lot and how it comes out, et 
cetera. Okay. So I gather that that is about a $129 billion 
difference just in 12 years. Am I correct on my math there?
    Mr. Sullivan. Yes.
    Ms. Sanchez. Okay. Thank you. So we were over and talking 
to the contractor and it seems to me--I mean, I understand 
about fixed costs and variable costs. And their comment to us 
was that as we cut back on the number of planes that we are 
asking them to produce in a year or this year or next fiscal 
year, whatever was projected, that obviously the cost becomes 
higher per unit on that. So we are really not saving as much as 
we thought we would or as some in the Congress thought the 
sequestration thing would do.
    And they also felt that as we pulled back because of 
sequestration and other issues and lowered the amount of 
aircraft that we created or have produced, that our allies, who 
are also on the order block to grab some of that, are also 
pulling back.
    Is that correct from your understanding and how you see the 
things going on with the F-35?
    Who is procuring? Who wants to answer that?
    General Davis. Well, to answer the first of part of your 
question, ma'am, we obviously know that there will be a cost 
increase and it will affect the rest of our budget. We know our 
European partners, at least the ones that are buying the CTOL 
[conventional take-off and landing] airplanes, the United 
States Air Force are very closely watching the moves we make 
and will be very interested to see what the impacts to their 
unit cost will be when we negotiate the reduced buys as a 
result of 2013. And then, if we can recover those buys in 2014 
back up to at least to the 19 that the President requests, then 
we will see how that plays out, but there will be an ongoing 
effect from 2013 to 2014.
    So I do know that that is playing very heavily in their 
decisions, and they are very much and in a lot of the same 
situations we are in terms of having challenges with their 
budgets. So from that aspect, that is my input.
    Admiral Skinner. Congresswoman, I would also say that there 
is a cost to concurrency. As we dialed back our production 
requests, it is because there was a certain amount of 
concurrency that we would have to take the jets that we were 
buying, and in some future time, we would have to go back and 
modify those jets and bring them up. So when we start talking 
about as we dial back our production numbers and the cost per 
unit goes up, if we buy them later in the buy, then our 
concurrency costs go down. So we have to look at the entire 
business case there with regards to balancing the cost of 
concurrency against the cost of dialing down our production 
lots and having an increased unit cost. To the----
    Ms. Sanchez. So are you trying to say that may--I 
understand the fact that we were going to buy some and we would 
go back and put in the fixes that we needed, or if we weren't 
all the way up to developing, but as we went on, we developed 
actually what we needed, we would come back and fix. So are you 
saying let's just wait and wait this out till we have the right 
fixes to everything and then purchase?
    Admiral Skinner. I think what we have seen in the 
production numbers that are currently in the budget, that is 
exactly what we are doing. We have dialed back some of our 
production numbers so that we can take a look and fix some of 
these issues. We have also, I believe, after--in future 
contracts with the contractor, we will share the cost of 
concurrency, so there is an incentive to the contractor to 
reduce these issues in the jets as soon as possible, but, yes, 
exactly.
    Ms. Sanchez. And my understanding is also that these 
foreign partners that we have, well, they are sort of seeing 
that same cost line, and they are saying, why don't we wait 
until the end, because the unit is going to be so much less 
expensive for us than for now. So it is like, who is going to 
go first? Is that what you are seeing also from our--we don't 
have--do we have someone that is working with the international 
groups? Mr. Sullivan.
    Mr. Sullivan. Yeah. I just wanted to say that there is--the 
program, when the original baseline of the program would have 
had 1,500 F-35s under contract by now.
    Ms. Sanchez. And how many do we have?
    Mr. Sullivan. And what we have now is somewhere around a 
little bit more than 350; 365, I believe. And the reason that 
that happened was because of the problems that they had in 
designing the aircraft. They had weight issues early, they had 
a lot of problems----
    Ms. Sanchez. Right.
    Mr. Sullivan. Very slow production.
    Ms. Sanchez [continuing]. And other things, yes.
    Mr. Sullivan. So I think my point is that they have--you 
know, the program has been very slow to deliver on its own. I 
mean, it was a very tough climb for this program to meet the 
requirements. Concurrency was part of that as well. So now you 
have the test program, which is about a third complete, so they 
still have 66 percent of the test program to go, and those 
changes will continue to flow into aircraft that we buy. As I 
said in my statement, there are 58 aircraft that are built now, 
that have been produced, production aircraft that are being 
retrofit as we speak. They have projected that there will be 
another--I think the total cost from retrofit from the test 
program is going to be somewhere around $1.7 billion, and that 
is going to play out over the next 3 or 4 years. So right now 
the program itself is just now beginning to hit----
    Ms. Sanchez. Its stride.
    Mr. Sullivan [continuing]. Its stride, and it still 
actually is below its original schedule for deliveries. I don't 
think that is, you know, a huge issue for the program now. They 
are beginning to hit their stride.
    On the other side of this, I think, is--and something that 
the generals and admirals really need to be concerned about is 
all of the--as the F-35 has been delayed and as the aircraft 
are slow in getting out, that is more and more cost for 
extending the life of their legacy aircraft. I think to date, 
because of delays to the F-35 program, they have had to invest 
as much as $8 billion in just keeping the existing legacy 
aircraft----
    Ms. Sanchez. Right. They have got to have planes to fly.
    Mr. Sullivan. Yes.
    Ms. Sanchez. Let me ask you, Mr. Sullivan, since we are on 
this issue, these cost overruns or these--I don't know how we 
call them. There is just so much more cost----
    Mr. Sullivan. Yes.
    Ms. Sanchez [continuing]. To it. Who--is it because we were 
just--we just want too much and we were pie in the sky when we 
made this contract, or were there physics limits to this and we 
should have known better? I mean, where do we--at whose feet do 
we lay $129 billion? And I am asking that only because I have a 
set of generals over here telling, oh, my God, the--you know, 
basically the sky is falling, because, you know, you are 
hollowing out what is going to be for the future, and where do 
we get that that money, we need to get that money, and yet we 
are $129 billion more than an original $231 billion.
    Mr. Sullivan. Yes. Well, I think on this program, and 
others can speak on this as well, but I think the requirements 
for the F-35, three variants, one that is going to take off 
from an aircraft carrier, one that has a short takeoff and 
vertical landing capability, an incredible set of requirements 
for one program to achieve.
    So I would lay most of the cost growth that you see--you 
know, the development costs under a cost plus contract and 
development have doubled, and the procurement costs as they 
learn more about how to really build to these requirements----
    Ms. Sanchez. Come down.
    Mr. Sullivan [continuing]. The unit cost for the aircraft 
is not what they thought it was going to be. The commonality 
that they were hoping for in these variants was--one of the 
things that this program was supposed to be able to bring was, 
you know, maybe 50 percent or more of these three aircrafts 
would be common, and as they got more and more into the 
requirements and the technologies that would be needed to 
achieve these three variants, they found out that that wasn't 
happening, either. So it was misunderstood requirements would 
be the genesis of the problems that this program has 
encountered, I think.
    Ms. Sanchez. Thank you, Mr. Sullivan. I don't mean to keep 
going on, on this subject. If the gentlemen there have any last 
comments to make on this issue of the F-35 and the fact that we 
have eaten so much money in trying to get there, I would love 
to have your comments. Otherwise, you know, we are going to 
continue this. It is not going to be a topic that goes away.
    General Davis. Ma'am, just to add to----
    Ms. Sanchez. Yes, General Davis.
    General Davis. Yes, ma'am, if I could. As was mentioned 
here, to extend our F-16 fleet with new radars and similar 
amounts of capability that was not an original program we had 
in our books, the Combat Avionics Performance Enhancement 
System for 300-plus F-16s, which is about $480 million just in 
development.
    Ms. Sanchez. And that is because you don't have the 
production planes off the F-35 that you thought you were going 
to have then?
    General Davis. It is because we--yes, ma'am. We had to 
extend the F-16 fleet to fill in that gap based on these issues 
that were brought up. So there is a complex set of fall-out 
costs that go well beyond the unit costs to the airplane as we 
deal with this.
    Ms. Sanchez. Right. Thank you. I think--thank you very 
much. And I think we will probably have some follow-up 
questions on that very issue of how much is this really costing 
us?
    Mr. Turner. And also they can put those answers in their 
closing statements.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    A couple of questions. And I am trying to understand the 
CH-53K ``Kilos'' [K model] are not in the budget. Is that 
correct? Or the buy for it? Foreseeable future, is it?
    Admiral Skinner. No, sir. I think the CH-53s are in the 
budget.
    Mr. Cook. They are?
    Admiral Skinner. Yes, sir.
    Mr. Cook. Okay. Because they know the ``Echo'' [E] model is 
probably very--is 30 years old. Is that correct?
    Admiral Skinner. Yes, sir. We are in a current development 
program for the CH-53K that will replace the CH-53 Echo. I will 
let my colleague----
    General Schmidle. So the 53 Kilo is currently being built 
right now. The first model is down in Palm Beach, Florida, but 
it is going to replace the 53 Kilo. And it is funded and 
Sikorsky has been developing the test demonstrator for us, and 
it is going to be able to carry 27,000 pounds 110 miles, and it 
is going to do for us everything--it is going to carry three 
times as much as the current 53 Echo that we have in the 
inventory.
    Mr. Cook. Okay. I want to back up a little bit to a comment 
that you briefed us yesterday on the issue of the Growlers 
versus the EA-6s [electronic warfare aircraft], the old 
Prowlers. And I was concerned about, you know, whether there 
might be a gap there between that. And, of course, I was led to 
believe that the F-35 would fill the void on that. We wouldn't 
need at least in the Marine Corps, the EA-6s or the Growlers, 
the EA-18. And maybe I am getting it wrong.
    And so I was a little bit concerned about that, because the 
EA-6, that is a very, very old platform, it is almost as old as 
me, but not by much. And it just seems like I want to make sure 
there is that crossover. Electronic warfare is something that 
is extremely important to me. And if you can just address that 
again a little bit.
    General Schmidle. So I could. So the plan is still to 
sundown, or to take out of service, the legacy EA-6Bs by 2019. 
What the plan is inside the Marine Corps is to leverage the 
capabilities that we have in F-35 in addition to other 
capabilities from ground and airborne platforms in a system-of-
systems approach to electronic
warfare.
    And I would offer to you that I would be happy to come and 
brief you or the committee in a classified setting, and I think 
I could do a much better job of explaining how we would intend 
do that.
    Mr. Cook. No. I am not worried about that. I am just 
worried about any delays in the F-35 and whether that gap 
there, if here we go again, the same thing we were addressing 
in the avionics and the F-16s because of production in the F-35 
might be delayed and delayed and delayed and it is going to 
affect other programs. Am I wrong in interpreting it as such?
    General Schmidle. No. You are absolutely right. And I think 
that is why you have heard from everybody here at the table 
that we are concerned about keeping the program on schedule and 
about, you know, the Harriers. We were going to retire those 
last year, and now we are going to take them out another 17 
years. So it is clearly an issue.
    Mr. Cook. Thank you. I yield back.
    Mr. Turner. Mr. McIntyre.
    Mr. McIntyre. Thank you very much. Thank you, gentlemen, 
for your service. In the short time I have, I wanted to ask 
Admiral Moran or Admiral Skinner, it is our understanding the 
Navy has a requirement for 40 squadrons to fill 10 carrier air 
wings with 4 squadrons each. Of the squadrons, the Navy has 35 
and the Marine Corps provides 3 squadrons with an agreement to 
supply 5.
    The question is: Does the Department of the Navy have 
enough Strike Fighter squadrons to fill 10 carrier air wings 
and still meet the marine commitments, including the overseas 
rotations and the marine expeditionary unit deployments, or are 
you several squadrons short of this requirement?
    Admiral Moran. Sir, thank you for the question. I think the 
agreement that we have with the Marine Corps called TACAIR 
[Tactical Aviation] Integration, which you correctly termed as 
five additional squadrons, on any given day, the Marine Corps 
has a number of squadrons that they can rotate through to 
support our carrier air wings to fill that void.
    We currently have our full allotment of Navy Strike Fighter 
squadrons to fill out the 10 carrier wings you referred to, and 
with the help of the Marine Corps to fill out the gaps that we 
had between 35 and 40, we are able to do that and support our 
deployed operations. And we are programmed to, inside both the 
F/A-18E/F program and the F-35C program over time, to complete 
that 40 squadrons of Strike Fighters per 10 air wings.
    Mr. McIntyre. All right. The fiscal year 2014 budget 
request also shows the Navy eliminated 13 Super Hornets that it 
was supposed to buy this year, however, the tactical aviation 
shortfall was reduced. Can you clarify for us how you account 
for the reduction in aircraft and a corresponding reduction in 
the shortfall? What is the tactical aviation shortfall this 
year for 2014?
    Admiral Moran. Yes, sir. General Schmidle referred to it 
earlier. Our Strike Fighter inventory management is largely 
based on our ability to control how we utilize the aircraft, so 
it is a primary factor that determines----
    Mr. McIntyre. Right.
    Admiral Moran [continuing]. Over time. The second part of 
that is our ability to inspect the airplanes out to a certain 
life. For legacy platforms, currently we can inspect them out 
to 9,000 hours. Last time when we reported the number, we were 
allowed to inspect only out to 8,600 hours. So that additional 
400 hours per aircraft across the fleet is a significant bonus 
for us in terms of driving the number down or managing the 
number down.
    And, finally, Congress was kind enough to add 13 E/Fs in 
the budget in 2013, which drove the number further down. So 
while we did lose 13 in DON [Department of Navy] in 2013, 
Congress was kind enough to add 11 back in, so the net effect 
was very small.
    So when you add all those three things together and you put 
it through the machine, the Strike Fighter shortfall projected 
out in 2023 long-term is approaching around 18 airplanes.
    Mr. McIntyre. All right. Thank you for additional 
clarification on that.
    At the Navy League last week, there were presentations on 
both the funded flight plan of the Super Hornet and additional 
advancements being considered. Please tell us about the 
importance of the modernization program for the Super Hornets 
in order to take that aircraft out for another 25 years or 
more. You can talk some about combat avionics.
    Admiral Moran. Yes, sir. Much like what the Air Force 
described in getting their fleet up to being able to deal with 
threats today, our flight plan that you referred to does invest 
significant amount of money in bringing all of our Hornets, 
Block 2 Hornets, up to AESA [Active Electronically Scanned 
Array]-capable Hornets.
    And then there are several other programs that I would be 
happy to come back, and in a classified setting to talk to you, 
to walk you through those investments. They are all in the 
classified world, but they are very significant, they are fully 
funded in 2014, and there will keep our Super Hornet fleet very 
relevant well into the late 2020s and early 2030s.
    Mr. McIntyre. All right. Thank you. And, General, you 
mentioned about the Harrier and being extended to 2030, 
originally to be retired by 2013. What was the year it was 
first put into full service, the Harriers?
    General Schmidle. I am not sure of the first variant. The 
variant that we are flying right now, the B model, I would have 
to take that to get the exact year for you.
    [The information referred to can be found in the Appendix 
on page 129.]
    General Schmidle. I would be guessing. I would say it is in 
the late 1980s.
    Mr. McIntyre. Yeah. I was thinking it was back in the 
1980s. Okay.
    General Schmidle. Yeah.
    Mr. McIntyre. Thank you. Thank you, gentlemen. Thank you, 
Mr. Chairman.
    Mr. Turner. Thank you. Due to our gavel rules, Mr. 
Garamendi would be next.
    Mr. Garamendi. Sorry, Mr. Chairman. My questions go to the 
ISR [Intelligence, Surveillance, and Reconnaissance] systems 
for both the Navy and the Air Force. It is not at all clear 
what the overall vision and strategy is for ISR as it relates 
to everything from satellites to various manned and unmanned 
systems, and we really need to understand that. So whatever you 
gentlemen might want to do for the record, or in classified to 
develop that information would be, I think, very helpful as we 
try to sort out what to do with some difference of opinion 
between Congress and at least the Air Force with regard to the 
Global Hawk and other platforms.
    [The information referred to can be found in the Appendix 
on pages 129-130.]
    Mr. Garamendi. My question specifically goes to Admiral 
Skinner and the MC4 [MQ-4C Triton surveillance unmanned aerial 
vehicle], the Triton system and what you called Point Mugu and 
I call Camp Malibu. What is the cost of building the program at 
Camp Malibu?
    Admiral Skinner. Well, sir, we went out--I think in the 
recent budget we went with an allocation, if I recall, of about 
$59 million from Military Construction to put in the 
appropriate modifications to the existing infrastructure at 
Point Mugu, sir, to host the MQ-4 Tritons at that particular 
air base.
    Mr. Garamendi. That was for a hangar?
    Admiral Skinner. Yes, sir.
    Mr. Garamendi. What about the other infrastructure, 
communications, housing, et cetera?
    Admiral Skinner. Well, housing is already there, sir. I 
know that I can probably take the question for the record and 
get you the exact cost breakdown, but if we intend to base our 
Tritons at that particular base, then certainly we would 
enhance all of that infrastructure in order to accept those 
airframes.
    [The information referred to can be found in the Appendix 
on page 130.]
    Mr. Garamendi. There is no communication infrastructure, is 
there, for this particular point?
    Admiral Skinner. Well, there is a robust communications 
infrastructure at Point Mugu. They have a large sea range. They 
have a lot of communications. Whether or not they could be 
modified quickly to accept the Triton, I would have to take 
that for the record.
    Mr. Garamendi. Has the Navy developed a full cost for 
basing this system at that location?
    Admiral Skinner. To my knowledge, we have, sir, but like I 
said, I can take it for the record and get it back to you.
    [The information referred to can be found in the Appendix 
on page 130.]
    Mr. Garamendi. When will it be back?
    Admiral Skinner. Probably within 30 days.
    Mr. Garamendi. We are going to be doing a national defense 
authorization within 30 days. That process is already under 
way.
    Admiral Skinner. We can get it as soon as possible.
    Mr. Garamendi. It would seem to me you would not proceed 
without a full cost for the program, would you? Without knowing 
the full cost, in which case you ought to be able to deliver it 
tomorrow morning.
    Admiral Skinner. We will go back and get it to you as soon 
as possible, sir.
    Mr. Garamendi. I will be waiting. A year ago, you were 
going to base this at Beale. Why did you decide to change?
    Admiral Moran. I can help with that. Beale was an effort to 
join with the Air Force in where we train crews and maintainers 
to operate Global Hawks across the Services. When we got the 
indication that the Air Force might not be going down that 
path, the Global Hawk path, we decided to base our BAMS [Broad 
Area Maritime Surveillance] out of one west coast site and one 
east coast site. The east coast site is still to be determined. 
It is either Jacksonville or Mayport, and the west coast site 
would be Point Mugu, as you say.
    Mr. Garamendi. And you did that decision with full 
understanding of the cost of developing Point Mugu as opposed 
to basing at--and I am unaware that the Air Force is abandoning 
Beale for the Global Hawk.
    Admiral Moran. I didn't mean to imply they were going to 
abandoned Beale. It is just the BAMS program along with the Air 
Force future Global Hawk was where we were going to join 
together, and it wasn't clear to us when we had to make 
decisions on where to base and put the infrastructure in that 
it was in time for delivery of the BAMS platform.
    To your earlier question on communications, the concept 
behind controlling BAMS is that we are going to put the 
controlling capability to talk to the airframe when it is 
forward in orbit at a collocated site at Whidbey Island as part 
of the P-8 BAMS integration. Where you have the manpower 
expertise that operate P-8s and
P-3s [Orion maritime surveillance aircraft] today, that same 
expertise will operate the BAMS vehicles when they are forward. 
The only thing that we are going to be required out of Point 
Mugu is the launch and recovery element for the aircraft 
itself. So it is not as robust as I think you might believe. 
And we can get a much clearer answer to you on the total cost 
for both sites to enable the BAMS program to get under way on 
the west coast.
    [The information referred to can be found in the Appendix 
on page 130.]
    Mr. Garamendi. Please do so.
    Mr. Chairman, I am out of time. I have some more questions, 
but I will take it in the next round.
    Mr. Turner. Thank you.
    Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman, and thank you to each 
of our witnesses that are here today. We certainly appreciate 
your service to our country, but that of your families as well. 
So I just want to thank you for that.
    General Davis, you mentioned in your written testimony that 
all three mission areas in the air-to-surface munitions 
inventory are short of inventory objectives and those missions 
are standoff, direct attack, and penetrator munitions. Could 
you provide this subcommittee with a list of those munitions 
and amounts that could be increased to the budget request, and 
if authorized and appropriated, could be executed in the fiscal 
year 2014?
    General Davis. Yes, ma'am, we certainly can. Let me just 
kind of give you the broad brush on those. As we face these 
very challenging times of budget reductions it seems munitions 
quite often are the flexible accounts we have to go to, to 
balance the budget accounts.
    Our current, just to give you some ideas, we can buy more 
of our Joint Air to Surface Standoff Missiles. The production 
lines allow it, at least at a baseline variance. And it would 
probably be better if we gave you the exact objective 
quantities in a classified format, just so you know, but we are 
probably somewhere around 50 percent of that requirement right 
now. We are using a lot of Hellfire missiles, as you can 
imagine, in conjunction with the Army. We could certainly 
increase the quantities on those.
    JDAM weapons, the Joint Direct Attack Munitions, were 
significantly increased in '14 to fill in shortfalls of the 
numbers we used. But they do have a very large production line 
to handle all the world's demands, if you will, because a lot 
of customers buy that.
    The one thing that we can increase that is probably of 
critical nature right now is our AMRAAM missiles. Our 
subcontractors to Raytheon are in the process of trying to 
recover the ability to build solid rocket motors for rockets, 
and we are partnering with a company in Norway as well as 
bringing up to speed another company in the United States to be 
able to build those rocket motors at the rates we need to match 
the guidance sections at Raytheon. So we are probably at the 
max on our AIM-120 AMRAAM missiles. So we can give you a little 
bit more detail on that. But there is some capacity in some of 
the weapons, but not all of them.
    Mrs. Roby. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Turner. Thank you. I am going to go out of order for a 
minute and jump down to Mr. Garamendi to finish his 
questioning.
    Mr. Garamendi. Thank you, Mr. Chairman.
    This series of questions goes to the Air Force, similar to 
the questions that I placed to the Navy. What is your vision 
and strategy for ISR?
    General Davis. Sir, let me just mention back to one I know 
of interest to everybody, obviously it is Global Hawk. I will 
say this and we can bring the operational context into it. We 
did not do that without carefully looking at how we cover that 
mission with the
U-2 [``Dragon Lady'' reconnaissance aircraft] and other 
classified platforms, and that would be one we probably need to 
go into some detail with in another forum, because there are 
systems out there that can do this in a variety of different 
ways.
    Mr. Garamendi. Overall, this whole ISR thing is confused. 
There have been changes. We have made changes, you have made 
changes, the Navy has made changes, and it is confused, and it 
frankly doesn't make much sense. So we need to understand what 
your vision--Navy, Air Force, and others--what the vision is 
for the Department of Defense so that we can help make rational 
decisions about what needs to be done and what money needs to 
be spent. And until that happens, I remain very, very 
concerned.
    General Davis. I do, sir. Let me put a little more context 
in that. We have pretty much heavily funded ISR for a very 
permissive environment for a couple of decades, so we are in 
the process now of trying to look at all the assets with our 
operational requirements, with our intel [intelligence] 
requirements, to try to rationalize a program that has operated 
almost totally uncontested and prepare it for a scenario where 
it is not going to have that freedom. So you have got to 
understand that we have a program that has got to do some very 
significant transitions over next few years in a challenging 
budget. We owe you those details----
    Mr. Garamendi. Yes, you do.
    General Davis. But it is not without the context of how we 
got into a situation that probably in many ways does not make 
sense.
    Mr. Garamendi. I appreciate all of that, and we really do 
need to have that and it probably has to be in a classified 
briefing where we can spend time on it.
    You did say something, General Davis, that I found curious, 
and that is you have higher priorities, and then you mentioned 
the F-35 and one other piece of equipment. When we have that 
lengthy discussion, I would like to know what the higher 
priorities are. And we ought to also have a discussion about 
where these systems are likely to be used--in an environment 
without contention, or one with contention. For example, 
Africa. Not much contention there right now. So anyway, we need 
to have a much deeper discussion.
    [The information referred to can be found in the Appendix 
on page 130.]
    Mr. Garamendi. With regard to the Navy on this thing, I 
don't understand why you are developing a new base when, in 
fact, you have adequate facilities at an existing base where 
you were going to go. Frankly, your discussion that well, the 
Air Force decided to change doesn't make any sense when, in 
fact, if the Air Force decides to change, there would be excess 
capacity at Beale.
    So we need to get into this in great detail, and I would 
suggest that you not go forward until we have such great detail 
available to you.
    For example, if the Air Force is not going to use the Block 
30s at Beale, then there is an excess capacity there in a 
hangar that is already in place with all of the infrastructure, 
including all of the communications in place ready to go. I 
will take a comment.
    Admiral Skinner. Well, we owe you the details, sir. I 
reviewed my written statement. We put $79 million in MILCON 
[Military Construction] in the budget for Point Mugu and 
Andersen Air Force Base out in Guam for putting the Triton out 
in the Pacific. But we owe you the detail. We have an ISR 
roadmap that our N26 requirements organization has put 
together, and we will bring that detail to you very rapidly and 
have that discussion.
    Mr. Garamendi. I would appreciate it.
    Mr. Chairman, thank you for your assistance on this matter. 
I know it is of concern to you as well as to me. Thank you, and 
I yield back.
    Mr. Turner. Thank you, Mr. Garamendi.
    We will turn to Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask a 
couple questions about the F-35 in particular, basically the 
capabilities. I know that with various planes and what have you 
that you can upgrade them by putting different radars on there, 
but I wanted to know particularly with everything going on in 
North Korea right now, and we saw the show of force in South 
Korea by some of the current fighters that we have, and we know 
everything that has happened in other parts of the world, can 
you discuss the importance of advanced stealth capability that 
the F-35 will give us in the future to meet the increase in 
threats around the world?
    And I was curious, is there anything, because I know that 
some people have said, no, you can upgrade certain jets that we 
already have in our fleet and make it just as good as the F-35. 
I just want to hear from you directly, is that the case? 
Anybody. Any of the
officers.
    General Schmidle. If I could, to begin with we really do 
need to take this discussion offline in a classified setting. 
What I can tell you is that what the F-35 is going to bring is 
much more than just the one capability you mentioned. It is 
going to bring a capability to fuse information that is beyond 
anything that we have today. So that, I think, that would be 
best served though if we could sit down with you in another 
forum and walk you through all of those capabilities.
    Mr. Veasey. Okay. I wanted to also talk about the ramping 
up of the F-35. It appears that the Department has finally 
stabilized the production rate for the F-35 program and is 
committed to increasing the ramp rate beginning in 2015. I 
understand that the unit costs have been coming down year over 
year. Can you tell the committee what you expect the costs of 
the F-35A CTOL variant to be when the program reaches full 
production rate in 2018? General Davis.
    General Davis. We always have an interesting discussion 
every time you talk about the unit cost of an airplane, there 
are so many factors that go it, between fly-away and 
everything. If you look at what the last production lot was 
negotiated for, it was roughly at a flying cost of around $100-
105 million for the airframe, and roughly around $15-16 million 
for a conventional engine. I will tell you once we get to the 
rate in 2015, that curve continues down, but it depends on the 
numbers we are able to buy with our budgets that we have 
between now and then.
    So while we hope it will decrease and continue to, I 
couldn't begin to tell you exactly what the 18 number would be. 
I am sure we can get that for the record and give you the 
projections that the program office has for you.
    [The information referred to can be found in the Appendix 
on page 131.]
    Mr. Veasey. One last question I wanted to ask Admiral Moran 
about the additional capabilities that the F-35 could bring to 
the fleet and its program and the importance to the Navy's 
tactical aviation recapitalization effort.
    Admiral Moran. Yes. As our Chief testified to yesterday, 
the F-35 is a key component of the future air wing mix that we 
are planning on. And much like what you just heard from the 
other gentlemen here, to really fully appreciate what that 
capability is and how it blends in with our other assets in the 
carrier wing, we would have to come back and talk to you in a 
classified setting. We would be happy to do that.
    [The information referred to can be found in the Appendix 
on page 131.]
    Mr. Veasey. And one more question, if the chairman wouldn't 
mind. I know that one of the things that the military is 
looking to do is to be able to respond more quickly to 
situations like what happened in Benghazi. What sort of role 
would this particular plane be able to play in that sort of a 
situation and being able to respond to things like that in the 
future?
    General Schmidle. Sir, I think one of the things that we 
talk about when we talk about crisis response just with my 
colleagues to the left of right of me here with the Navy and 
Marine Corps team is having that capability afloat, if you 
will, and the variants of the F-35 that we are buying, 
including the B variant that the Marine Corps is buying, will 
be on amphibious shipping and it will be in floating in 
addition to the AF-35s that will be on carriers. So I think 
what it is going to bring to the Nation is a lot more 
flexibility in terms of our ability as a Nation to respond to 
those kinds of crises.
    Admiral Skinner. Sir, if you recall, we had an F-15 pilot 
shot down in Libya and we had assets, because of this very team 
we are talking about, we had assets on top of him very, very 
quickly and had him extracted from country very, very quickly, 
because we had those types of assets in amphibious shipping 
close into the country. And that would be the same thing with 
additional capability that the B could bring to the fight.
    Mr. Veasey. Thank you.
    Mr. Turner. Thank you.
    General Field, I know General Schmidle has done a great job 
of balancing that line between what we can talk about and what 
we can't talk about, but yet, we are in this situation where we 
have to paint the picture of how dire things are and that the 
military that we have now and that we have been able to conduct 
operations with will not be the military that we have at the 
end of sequestration and the significant budget cuts if we 
allow them to all go into place.
    So capturing and articulating that unacceptable level of 
risk is difficult, because the word ``risk,'' you know, we are 
Americans. We rise above risk. So when you say something is at 
risk, we say well, we always succeed. What is risk?
    But the reality is, is that there are significant threats 
out there. There are people who are developing significant 
capabilities that will make the whole dynamics of what General 
Davis was saying about we can go anywhere, deliver a force 
anywhere and have a full capability, that this is not just at 
risk, but may be a new paradigm where we are not capable of 
having the force that we had
before.
    So in your statement, you described a decreased fighter 
force structure of 1,900 total fighter aircraft as an increased 
risk to carry out the national military strategy. That is a 
reduction from a 2,000 fighter aircraft inventory of just 2 
years ago. Could you please give us an understanding of what 
does that risk mean? I know with General Schmidle saying there 
are capabilities we have to talk about offline, but this risk 
has to be articulated in a manner where it can be dealt with by 
Congress and the Air Force.
    What does that mean, increased risk, and what does Congress 
need to do about it? General.
    General Field. Yes, sir. This is another bit of a 
classified situation, so we can come back and talk to you about 
that, but here is how I would lay it out in this forum.
    Our current inventory of just fighter aircraft, if that is 
what we are going to talk about, is barely able to meet the 
requirements in a couple of the scenarios that we were planning 
against where requirement and demand equal one another. And 
when you have a situation where today, our readiness forces 
are, as we measure them today, about 50 percent, what we would 
call totally ready, that presents in a situation, in my 
opinion, of great risk.
    When you talk about sequestration and now you take nine of 
those fighter squadrons and you sit them on the ground, like 
General Schmidle said, this is not something that happens 
overnight. That readiness level and the proficiency of those 
air crew will decay over time. But within about a month and a 
half to 2 months, they will be out of currency in several 
specific events, and within about 3 to 4 to 5 months, we are 
going to have to do something very significant in terms of 
getting them back up to speed, especially in terms of this 
high-end threat that you alluded to.
    And that threat is not just confined to some of the bigger 
nation-states on the globe. Those guys produce very effective 
systems, and they sell them to other countries. So in the 
Middle East, for example, there are several countries that 
provide a significant threat to airborne assets. We can address 
that threat in several ways. You can address it through systems 
and technology and you can address it through tactics, 
techniques, and procedures. And you, we, all of us at this 
table, will address it across that whole spectrum.
    And whatever we have in our kit bag is what we will fight 
that scenario with, and we will try to do it where we minimize 
the cost to our forces and maximize the destruction to the 
enemies, and that is what we have trained to do for, on this 
table, our entire professional career.
    Now, at the end of the day, readiness is about a couple 
things. It is about ready to do what, and, again, like you 
said, at what risk? So if we were at a risk level that was 
pretty high before, and now we ground or stop flying nine 
fighter squadrons and four bomber squadrons, that is obviously 
going to increase the risk depending on when those forces were 
called upon to do something.
    So readiness is a balancing act that we all have to pay 
attention to and it is readiness now to do something and then 
we have to pay attention to what kind of readiness to do what 
will we need to be at in 2020.
    We have talked a little bit about how many F-35s should 
have been on the ramp right now, and how many new tankers 
should have been on the ramp right now, and I know that we owe 
Congresswoman Sanchez a little look at that ancillary cost of 
keeping legacy aircraft afloat that we hadn't planned on. And 
if we continue down that road and focus on readiness only for 
today, then we will be, 10 years from now, we will be with the 
same equipment, 10 years older, in a lesser readiness level 
than we are now. So we are going to have to take some risk, 
between now and 10 years from now, in terms of how much ready 
for today's fight versus how much ready for tomorrow's fight.
    Mr. Turner. Thank you. I know that this is a difficult 
thing to discuss in an open format, but when you have the 
Commandant of the Marine Corps yesterday saying that with the 
President's direction to take our military strategy from two 
major contingency operations down to one, and that with 
sequestration he gave us what was going to be required to 
undertake one and be successful and that sequestration took us 
below that level, I think people don't necessarily understand 
that when you go from two major contingency operations to one, 
that means if we are occupied, others, not just the United 
States being at risk, but others could have mischief 
threatening our other allies. And certainly as we look to your 
diminished capacity, we look to the issue of who else besides 
us are at risk, and what does that mean for the world that 
those who might do harm to others are not as deterred knowing 
that our force structure is not what it has been.
    And that we have to articulate clearly, and I looked for 
each of you to help us find a way to say this that is not 
classified so we can convince those who don't hear what you 
tell us in classified formats the message so that we can set 
this aside and get our budgets reformed.
    Ranking Member Loretta Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And these are 
difficult decisions that we are trying to make here and we 
appreciate getting the information from you so we can make 
better decisions, because that is really the role of Congress, 
is to try to figure out what we can.
    My fear is that we invest our moneys in these F-35s--look, 
we need the F-35. We all know that. It is not going away. Mr. 
Veasey, don't worry about that. He represents Dallas and Fort 
Worth over there, you can probably tell. And we went to your 
place to take a look at them. And it is not because of that 
reason that we are asking the questions. We are asking the 
questions because we are trying to figure out how do we get 
this all done?
    My fear is we buy a bunch of planes and what we have seen 
in some countries and we always, amongst ourselves, always are 
talking about these countries who buy planes but they don't 
have the pilots trained or they don't have the maintenance 
capabilities or operational capabilities to even know how to 
fly them. So we don't want to end up with a bunch of planes and 
also have our people untrained to be able, as you said, to not 
be able to fly these things. So how do we do this? It is a very 
difficult thing to take a look at.
    I also want to talk about the F-22 right now, because I am 
looking at the budget and what I see is, F-22, okay, we have, 
what, about 180 or so of these that we made, not we, but great 
people on the line, obviously, and it costs about $370 million 
apiece. The Air Force is requesting $919.5 million for upgrades 
to the 187 F-22 aircraft we already have in service. That is 
about $5 million an aircraft. And the funding in this range 
more or less continues in the budget through fiscal year 2018.
    So can you tell me, $5 million, on average, $5 million 
worth of upgrades on a plane that we spent $320 million on and 
continuing forward for the next 4 or 5 years, what are we 
doing? What are we buying? Given the pressures that we have, 
what is that doing? And is it really $900 million every year 
for the next 4 or 5 years in order to--what are you doing with 
that, $5 million a plane for the next 4 or 5 years.
    General Field. Ma'am, I can talk to some of the 
capabilities of the F-22. In 2007, I went to Marietta, Georgia, 
and I picked one up from the factory, signed my name on the 
piece of paper, and the flyaway cost of that airplane was $91 
million. So, again, this whole how things cost out and how much 
it costs per flying hour is, in my opinion, a very arcane and 
constrained science.
    Ms. Sanchez. If you were in a business, General, if we were 
in a business and I had my fixed costs, and that includes R&D 
[research and development], and my variable costs, and at the 
end of the whole thing I got to one large number and I divided 
it by the number of widgets I made, you know, yours might have 
cost me $70 million or what have you, but if my first one costs 
me $300 million or $800 million, if I am a business person, we 
are always talking about how we are Americans and business is 
the business of America, if I am a business person, I am not in 
business if I sell each of those planes at $90 million apiece.
    Do you see what I am saying? So it might have cost you, 
that particular one, less. But now we are going to go back and 
we are putting $5 million, on average, maybe it is just a few, 
maybe it is the whole thing, maybe every year there is 
something new to put on it, what is in this $900 million number 
every year?
    General Field. So what it does is it enables us to operate 
in those contested environments within those threat systems 
that are being built around the world and proliferated around 
the world, whether those are new mobile surface-to-air missile 
systems, whether those are new radars that link together to 
make an entire system more capable.
    What the F-22 does, because in terms of its speed and 
stealth and its fusion capability, it allows us to change the 
nature of that battle space and pick out areas that are 
vulnerable that would not be vulnerable to aircraft that don't 
have that kind of capability on there.
    So what the upgrades over the next 5 years do is it 
improves the radar ground mapping of the aircraft so that it 
can find targets better on the ground; it improves the data 
link capability on it; and it puts some of our advanced weapons 
like the AIM-120D [advanced medium-range air-to-air missile] 
and the AIM-9X [Sidewinder short-range air-to-air missile] into 
the aircraft.
    All of those are necessary to operate in that very tough, 
very high-threat environment. And right now those F-22s, 
combined with our legacy aircraft, whether they are Air Force, 
Navy, or Marine, help provide a synergistic effect to how 
effective all of those aircraft are, and we have proven that 
time and again in exercises both within the United States and 
outside the United States.
    So that is the value that we have. And it is expensive, but 
I think that we are going to, if something bad were to happen 
around the world, that is the kind of capability we are going 
to need to initially operate in that environment, to change 
that battle space so that the rest of our legacy aircraft have 
a better chance of survival and being effective in that combat 
arena.
    Ms. Sanchez. Thank you for that. Again, I would go back to 
this whole hollowing out of, are we really going to have the 
skill set? And when I look at that, Mr. Chairman, I not only 
see it from, will our airmen be able to fly these souped-up 
things we soup up every year, but will we even be graduating 
people who can enter the Air Force Academy, for example, if we 
are not investing in our schools. Because there is always a 
tradeoff, domestic spending versus having the weapons in 
storage for when we need them. It is a very difficult thing for 
us to do.
    Thank you, Mr. Chairman. I appreciate you having called 
this hearing.
    Mr. Turner. Thank you, Ms. Sanchez. I appreciate your 
partnership in working on all those important issues.
    Gentleman, as I am promised you, we will conclude with you 
providing any closing thoughts that you have. You don't need to 
feel compelled. But I always want to have the opportunity in 
case there is something that has preceded your testimony that 
you thought you would like to add to the record.
    Mr. Sullivan, I will begin with you.
    Mr. Sullivan. I have nothing to add, Chairman.
    Mr. Turner. Admiral Skinner.
    Admiral Skinner. Nothing to add, sir.
    Mr. Turner. General Schmidle.
    General Schmidle. I do have something to add.
    Mr. Turner. Very good.
    General Schmidle. Just a couple of things. The first thing, 
Mr. Chairman, your discussion before about how we can talk 
about this in an unclassified environment, back to what the 
Commandant said yesterday at the hearing, I think the issue he 
was getting at, and you articulated, is ``capacity.'' That is a 
simple word, but that really just defines what we are talking 
about. We have capabilities, but it is the capacity that we 
have that is affected by some of the things we have been 
talking about.
    And if I could, the last thing, we the Marine Corps 
actually have two F-35 squadrons stood up right now. One of 
them is in Florida. It has 11 airplanes and 17 pilots. It 
actually has 13 airplanes. We borrowed two from the Brits which 
we are flying. We have two British pilots in this squadron. And 
we have an operational squadron, that is our training squadron, 
we have an operational squadron in Yuma, Arizona, that has 4 
airplanes and 7 pilots and 166 maintainers. And we actually 
have marines out there turning wrenches on this airplane right 
now today without any contract maintenance and they are flying 
airplanes out there. By the end of this year, they will have 16 
airplanes in Arizona by September of this year. We are going to 
declare the initial operating capability of that squadron in 
2015, and then we are going to deploy it to Japan in 2017. So 
that is kind of our plan right now.
    Mr. Turner. Thank you. That was a very excellent point. 
Admiral Moran.
    Admiral Moran. Nothing to add.
    Mr. Turner. General Field.
    General Field. Yes, sir. Chairman Turner, Ranking Member 
Sanchez, distinguished members of the subcommittee, thank you 
for allowing us to appear before you and discuss these very 
important topics today. General Davis and I know that we owe 
some of you some homework and we will get that back to you as 
soon as possible, either in terms of a document or probably in 
a couple of cases a briefing, that we need to come back and 
have a more enriched discussion in a classified environment.
    I would like to emphasize the troubling effects of 
sequester that we have on our current and future readiness. For 
the first time in my memory, Air Force combat forces are not 
flying due to the lack of funding in the middle of a fiscal 
year. While we are protecting the current fight, those 
scheduled next to deploy and baseline training, at a large 
number of bases, combat training operations have come to a 
complete halt. If you have the opportunity to visit airmen at 
these bases, you are going to find the silence a bit unnerving. 
As we speak, their combat capability and effectiveness are 
eroding.
    For example, by canceling our weapons instructor courses, 
we have created a gap in the production of graduate-level 
instructors that will have long-term impacts on a generation of 
warfighters. Those instructors are the heart, the soul, and the 
brains of our warfighting capabilities. Over the years, 
phenomenal training programs have been developed and they 
sustain a United States Air Force that is second to none. But 
we have just terminated a large portion of those full-spectrum 
training operations.
    The effects of sequestration on weapons systems sustainment 
and the Flying Hour Program will not disappear on the first of 
October with the new fiscal year. We are developing a Return to 
Fly Program for those affected units, but it will take time, 
additional resources, and a reduced OPSTEMPO to fully recover.
    The sooner we begin to fly a full training program, the 
sooner we will recover, but make no mistake, it will be an 
uphill battle. The greatest challenge will be to find the 
balance between minimizing the impact on readiness and 
preserving investment dollars for modernization, 
recapitalization of our fighter and bomber fleets, and the 
preferred munitions inventories, all the while meeting the 
requirements our defense strategies demand overseas. As we 
discussed, this is a delicate and very tough balance.
    So we appreciate the support of the subcommittee and the 
HASC [House Armed Services Committee], and I ask for your 
continued support to mitigate the effects of sequestration into 
fiscal year 2014 and beyond. The sooner we can stabilize 
training, modernization, and munitions funding, the sooner we 
can ensure that we are on the track to fulfill our Nation's 
requirements now and in the
future.
    Thank you very much.
    Mr. Turner. Thank you. Well said.
    General Davis.
    General Davis. Nothing, sir.
    Mr. Turner. With that, I thank each of you for 
participating and thank you for your dedication.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 17, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2013

=======================================================================

      
                   Statement of Hon. Loretta Sanchez

   Ranking Member, House Subcommittee on Tactical Air and Land Forces

                               Hearing on

   Fiscal Year 2014 Navy, Marine Corps and Air Force Combat Aviation 
                                Programs

                             April 17, 2013

    Today's hearing will focus on the Fiscal Year 2014 Navy, 
Marine Corps, and Air Force requests for aircraft development, 
modifications, and procurement. This area of investment 
represents the largest single portion of the DOD's entire 
procurement funding request. While the combat capability the 
Navy, Marines, and Air Force bring to our Armed Forces is the 
best in the world, it comes at a very high cost.
    The total Navy request for aircraft procurement and 
modifications, including the Marine Corps, is $18 billion. To 
put that figure in context, the Navy request for shipbuilding 
in FY14 is only $14 billion.
    For the Marine Corps, which is primarily a force designed 
for ground combat, the FY14 request for aircraft procurement 
and modifications is about $3.5 billion. To put that figure in 
context, the Marine Corps entire budget for buying new ground 
equipment is only $1.3 billion.
    And finally, the Air Force request for aircraft procurement 
and modifications is about $11.4 billion. While less than the 
Navy and Marine Corps, $11 billion is still more than the 
entire defense budgets of the Netherlands, Colombia, Poland, 
Singapore, Greece, and many other countries.
    So, in FY14 it is clear that DOD continues to invest 
significant resources in maintaining the United States' status 
as the world's premier combat aircraft force. The question 
before the subcommittee today is whether or not these 
investments are sustainable given the many other pressures on 
military service budgets and the DOD budget as a whole.
    It is important to remember that while the Navy, Marines, 
and Air Force are proposing to spend more than $30 billion on 
new aircraft and modifications to current aircraft, we have:
        <bullet> L17 squadrons of Air Force fighter aircraft 
        that have no money to fly;
        <bullet> Lan entire Aircraft Carrier battle group that 
        did not deploy as planned; and
        <bullet> Lmost of the U.S. Army has been forced to stop 
        conducting training above the squad level.
    At some point, it may be time to question whether or not 
the U.S. military can afford to have what amounts to three 
separate ``Air Forces''--one for the Navy, one for the Marines, 
and one for the Air Force itself. For example, could the Nation 
perhaps get by with only two Air Forces instead of three? With 
sequester cuts now an unfortunate reality, it may well be time 
to relook assumptions that haven't been challenged for a decade 
or more.
    I thank the witnesses for their service and look forward to 
their testimony.

[GRAPHIC] [TIFF OMITTED] T0761.001

[GRAPHIC] [TIFF OMITTED] T0761.002

[GRAPHIC] [TIFF OMITTED] T0761.003

[GRAPHIC] [TIFF OMITTED] T0761.004

[GRAPHIC] [TIFF OMITTED] T0761.005

[GRAPHIC] [TIFF OMITTED] T0761.006

[GRAPHIC] [TIFF OMITTED] T0761.007

[GRAPHIC] [TIFF OMITTED] T0761.008

[GRAPHIC] [TIFF OMITTED] T0761.009

[GRAPHIC] [TIFF OMITTED] T0761.010

[GRAPHIC] [TIFF OMITTED] T0761.011

[GRAPHIC] [TIFF OMITTED] T0761.012

[GRAPHIC] [TIFF OMITTED] T0761.013

[GRAPHIC] [TIFF OMITTED] T0761.014

[GRAPHIC] [TIFF OMITTED] T0761.015

[GRAPHIC] [TIFF OMITTED] T0761.016

[GRAPHIC] [TIFF OMITTED] T0761.017

[GRAPHIC] [TIFF OMITTED] T0761.018

[GRAPHIC] [TIFF OMITTED] T0761.019

[GRAPHIC] [TIFF OMITTED] T0761.020

[GRAPHIC] [TIFF OMITTED] T0761.021

[GRAPHIC] [TIFF OMITTED] T0761.022

[GRAPHIC] [TIFF OMITTED] T0761.023

[GRAPHIC] [TIFF OMITTED] T0761.087

[GRAPHIC] [TIFF OMITTED] T0761.024

[GRAPHIC] [TIFF OMITTED] T0761.025

[GRAPHIC] [TIFF OMITTED] T0761.026

[GRAPHIC] [TIFF OMITTED] T0761.027

[GRAPHIC] [TIFF OMITTED] T0761.028

[GRAPHIC] [TIFF OMITTED] T0761.029

[GRAPHIC] [TIFF OMITTED] T0761.030

[GRAPHIC] [TIFF OMITTED] T0761.031

[GRAPHIC] [TIFF OMITTED] T0761.032

[GRAPHIC] [TIFF OMITTED] T0761.033

[GRAPHIC] [TIFF OMITTED] T0761.034

[GRAPHIC] [TIFF OMITTED] T0761.035

[GRAPHIC] [TIFF OMITTED] T0761.036

[GRAPHIC] [TIFF OMITTED] T0761.037

[GRAPHIC] [TIFF OMITTED] T0761.038

[GRAPHIC] [TIFF OMITTED] T0761.039

[GRAPHIC] [TIFF OMITTED] T0761.040

[GRAPHIC] [TIFF OMITTED] T0761.041

[GRAPHIC] [TIFF OMITTED] T0761.042

[GRAPHIC] [TIFF OMITTED] T0761.043

[GRAPHIC] [TIFF OMITTED] T0761.044

[GRAPHIC] [TIFF OMITTED] T0761.045

[GRAPHIC] [TIFF OMITTED] T0761.046

[GRAPHIC] [TIFF OMITTED] T0761.047

[GRAPHIC] [TIFF OMITTED] T0761.048

[GRAPHIC] [TIFF OMITTED] T0761.049

[GRAPHIC] [TIFF OMITTED] T0761.050

[GRAPHIC] [TIFF OMITTED] T0761.051

[GRAPHIC] [TIFF OMITTED] T0761.052

[GRAPHIC] [TIFF OMITTED] T0761.053

[GRAPHIC] [TIFF OMITTED] T0761.054

[GRAPHIC] [TIFF OMITTED] T0761.055

[GRAPHIC] [TIFF OMITTED] T0761.056

[GRAPHIC] [TIFF OMITTED] T0761.057

[GRAPHIC] [TIFF OMITTED] T0761.058

[GRAPHIC] [TIFF OMITTED] T0761.059

[GRAPHIC] [TIFF OMITTED] T0761.060

[GRAPHIC] [TIFF OMITTED] T0761.061

[GRAPHIC] [TIFF OMITTED] T0761.062

[GRAPHIC] [TIFF OMITTED] T0761.063

[GRAPHIC] [TIFF OMITTED] T0761.064

[GRAPHIC] [TIFF OMITTED] T0761.065

[GRAPHIC] [TIFF OMITTED] T0761.066

[GRAPHIC] [TIFF OMITTED] T0761.067

[GRAPHIC] [TIFF OMITTED] T0761.068

[GRAPHIC] [TIFF OMITTED] T0761.069

[GRAPHIC] [TIFF OMITTED] T0761.070

[GRAPHIC] [TIFF OMITTED] T0761.071

[GRAPHIC] [TIFF OMITTED] T0761.072

[GRAPHIC] [TIFF OMITTED] T0761.073

[GRAPHIC] [TIFF OMITTED] T0761.074

[GRAPHIC] [TIFF OMITTED] T0761.075

[GRAPHIC] [TIFF OMITTED] T0761.076

[GRAPHIC] [TIFF OMITTED] T0761.077

[GRAPHIC] [TIFF OMITTED] T0761.078

[GRAPHIC] [TIFF OMITTED] T0761.079

[GRAPHIC] [TIFF OMITTED] T0761.080

[GRAPHIC] [TIFF OMITTED] T0761.081

[GRAPHIC] [TIFF OMITTED] T0761.082

[GRAPHIC] [TIFF OMITTED] T0761.083

[GRAPHIC] [TIFF OMITTED] T0761.084

[GRAPHIC] [TIFF OMITTED] T0761.085

[GRAPHIC] [TIFF OMITTED] T0761.086

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 17, 2013

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. MCINTYRE

    General Schmidle. In April 1971, the Marine Corps' first 
operational AV-8A squadron was established in Beaufort, South Carolina. 
In January 1985, the Marine Corps' first operational AV-8B squadron was 
commissioned at Marine Corps Air Station Cherry Point, North Carolina. 
AV-8B Initial Operational Capability, or IOC, was achieved in August 
1985. [See page 20.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Sullivan. As of now, the Department has an Intelligence, 
Surveillance, and Reconnaissance (ISR) roadmap, but no coherent ISR 
investment strategy. Congress and GAO have pushed for the development 
of an ISR roadmap and investment strategy for nearly a decade. The 
National Defense Authorization Act for Fiscal Year 2004 specifically 
required DOD to develop a roadmap to guide the development and 
integration of DOD ISR capabilities over a 15-year period and report to 
Congress on the contents of the roadmap. In addition to other matters, 
the 2004 legislation required DOD's roadmap to include: (1) fundamental 
goals, (2) an overview of ISR integration activities, and (3) an 
investment strategy. In response, DOD issued an ISR Integration Roadmap 
in May 2005, which it updated in 2007 and again in 2010. GAO's recent 
review of the 2007 and 2010 roadmaps found that while DOD has made 
progress, neither roadmap included all the elements specified by 
Congress or addressed the important issue of how to invest future 
resources among competing priorities. \1\ GAO noted that without a 
detailed investment strategy, DOD and the military services may not 
have a common understanding of how activities should be prioritized. 
Until DOD addresses challenges related to managing funding, integrating 
ISR capabilities, and minimizing inefficiencies in its ISR enterprise, 
the department risks investing in lower-priority and even duplicative 
capabilities while leaving critical capability gaps unfilled. As a 
result, GAO suggested that the Congress consider establishing 
additional accountability in legislation, such as conditioning a 
portion of ISR funding on completion of all congressionally directed 
management elements, including the development of an integrated ISR 
investment strategy, to ensure that future versions of the ISR 
Integration Roadmap meet all of the elements of an integrated ISR 
roadmap identified in the National Defense Authorization Act for Fiscal 
Year 2004 as well as the 2008 House of Representatives Committee on 
Armed Services report. [See page 20.]
---------------------------------------------------------------------------
    \1\ GAO, Intelligence, Surveillance, and Reconnaissance: Actions 
Are Needed to Increase Integration and Efficiencies of DOD's ISR 
Enterprise, GAO-11-465 (Washington, D.C.: Jun 3, 2011).

    Admiral Skinner and Admiral Moran. The Navy's ISR Strategy involves 
advanced sensor development across all domains: Navy's increased 
capability and capacity should be aimed at having complete visibility 
into regions of interest and overcoming an adversary's efforts to deny 
---------------------------------------------------------------------------
access to critical areas. Advanced technologies are needed to:

        <bullet>  Increase autonomy of sensors, platforms, and data 
        processing to reduce data latency and manpower costs.
        <bullet>  Optimize the mix of autonomous manned and unmanned 
        platforms and sensors to increase capability and capacity to 
        commanders and weapons.
        <bullet>  Develop sensors that:

                <all>  Enhance multi-INT, multi-domain collection 
                capabilities, and improve visibility into contested 
                battlespace;
                <all>  Increase the number of multi-purpose, low-cost, 
                networked, deployable, and expendable assets;
                <all>  Process data locally and disseminate required 
                data smartly.

        <bullet>  Replace larger single-capability satellites by 
        hosting sensor payloads on other types of platforms and 
        identify options for spacebased collections:

                <all>  Investigate micro-, mini-, and nano-satellites 
                to provide fine-scale temporal and spatial resolution 
                data via common C2 paths as well as to provide 
                persistence, increase collection fidelity and mitigate 
                capacity issues;
                <all>  Improve low-power sensors and battery and fuel 
                cell technology to enhance persistence and endurance;
                <all>  Develop and collect strategic signals of 
                interest by improving NTM and tactical collection 
                capabilities in support of emerging threats;
                <all>  Pursue satellites technologies with greater on-
                board processing and direct downlink capabilities to 
                deployed forces and weapon systems to reduce the SATCOM 
                requirement;
                <all>  Determine the capability and availability of 
                other agencies' and countries' ISR assets in near real-
                time to support Navy/maritime collection requirements, 
                and make greater use of international partnerships; 
                achieve net-enabled cognitive interactions between 
                disparate forces to enhance collaborative operations, 
                including allies.

        <bullet>  Develop sensors and networks that use ``Spectrum 
        Agility'' to work seamlessly across broad areas of the 
        spectrum, increasing survivability and effectiveness; detect 
        and precisely measure and map the EM environment in real-time.
        <bullet>  Meet the growing data demand coming from new SIGINT 
        and oceanbased sensors, as well as higher resolution persistent 
        sensors coming from space-based systems and multi-spectral 
        sensors.
     [See page 20.]

    General Schmidle. The DOD ISR Roadmap defines the DOD vision/
strategy for ISR and was last published on 18 Mar 2010. It is a 
classified document that outlines how the DOD will satisfy the key 
strategic ISR goals and objectives embedded within the National 
Intelligence Strategy (NIS), Defense Intelligence Strategy (DIS), and 
Guidance for the Development of the Force (GDF). The DOD ISR Roadmap 
describes all important programs that must be integrated across the DOD 
in order to achieve efficient investment in new ISR capabilities, 
enhance the DOD's role in fulfilling Homeland Security 
responsibilities, and support optimal resource planning and budgeting 
across the enterprise. The next version of the DOD ISR roadmap is 
expected within the next 90 days. [See page 20.]

    General Davis and General Field. The Air Force answered this IFR 
through classified briefings to Congressman Garamendi's office on 8 and 
22 May. [See page 20.]

    Admiral Skinner and Admiral Moran. Point Mugu, CA (Naval Base 
Ventura County or NBVC) was the original MQ-4C Triton West Coast basing 
location. It was changed to Beale Air Force Base in President's Budget 
2012 to support a Memorandum of Agreement signed between the Chief of 
Staff of the Air Force and the Chief of Naval Operations who agreed, in 
principle, to several actions anticipated to bring greater synergy and 
efficiencies to Q-4 Unmanned Aircraft System operations. Following the 
United States Air Force decision to divest of RQ-4B Global Hawk Block 
30s in President's Budget 2013, and in consideration of Federal 
Aviation Administration limitations on Unmanned Aircraft System flight 
operations at Beale Air Force Base, the Navy elected to realize the 
projected savings and operational advantages of basing the MQ-4C Triton 
at NBVC.
    The cost to build four new facilities for MQ-4C Triton maintenance, 
training, and operations at Beale AFB would be $121M. The cost to 
refurbish two facilities and build one new facility at NBVC would be 
$61.8M. The required housing, communication, and other Navy Unmanned 
Aircraft System support already exists at NBVC. By basing the MQ-4C 
Triton UAS at NBVC vice Beale AFB the Navy estimates a cost savings of 
$100.7M across the FYDP. [See pages 20-22.]

    General Davis and General Field. A reduced high-altitude ISR 
requirement (in which the U-2 was sufficient) and a reduced budget (the 
Department could no longer afford further investment in RQ-4 Global 
Hawk Block 30) drove the retirement decision.
    In August of 2011, DOD's Joint Requirements Oversight Council 
reviewed recent adjustments in military strategy and determined the 
Department could reduce high-altitude ISR force structure requirement. 
The Air Force further determined the U-2, which remains viable until at 
least 2040, was sufficient to meet these reduced requirements. 
Continued investment in the RQ-4 Block 30 was required to field a 
comparable capability to the U-2, but was not warranted given a 
significant reduction in the Department's budget and an alternative 
system, the U-2, that was still operationally viable at a considerably 
lower cost over the Future Years Defense Plan.
    To meet the Budget Control Act (BCA) requirement for budget 
savings, the funds obtained from the RQ-4 Block 30 divestiture were not 
moved into other accounts. These funds were used to meet part of the 
required BCA budget reduction. [See page 23.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. VEASEY

    General Davis and General Field. The Air Force is scheduled to 
answer this IFR in a SAP classified briefing on 23 Jul. Congressman 
Veasey is planning to attend this briefing along with all members of 
the HASC Tactical Air and Land Forces Subcommittee which was scheduled 
by PSM John Sullivan. [See pages 24-25.]

    Admiral Moran. [The information referred to is classified and 
retained in the committee files.] [See page 25.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2013

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. It is clear that the world is getting more 
dangerous, not less. The situation with North Korea makes that very 
clear. Iran is moving toward a potential nuclear weapon. We know that 
Russia and China are developing advanced stealth fighters and 
proliferating advanced surface-to-air missile systems. Can you discuss 
the importance of the advanced stealth capability that the F-35 will 
give us and our allies in the future to meet the increasing threats 
around the world?
    Admiral Skinner and Admiral Moran. The F-35C provides a 5th 
generation fighter aircraft to the Navy carrier air wing and brings 
with it the ability to effectively engage and survive a wide range of 
threats, both air and surface, in contested airspace. It provides a 
``day-one'' strike capability enabling tactical agility and strategic 
flexibility required to counter a broad spectrum of threats and win in 
operational scenarios that cannot be addressed by current legacy 
aircraft, including operations in an anti-access/area denied 
environment.
    F-35C's 5th generation survivability and lethality is enhanced by 
very low observable stealth characteristics, fusion of onboard and off-
board passive and active sensors, and real-time integration with other 
F-35Cs and Navy assets, which provide a ``first detect/first shot'' 
capability throughout the battlespace. The F-35C will provide a 
significant additive value when brought to bear with the networked 
fighting concepts of the U.S. Navy Carrier Strike Group and in a joint/
combined warfighting arena.

    Mr. Thornberry. Can you provide the Subcommittee with an update on 
the F-35B STOVL variant's progress in the test program and discuss why 
you and the Commandant believe this aircraft is so critical to the 
Marine Corps' future?
    General Schmidle. In 2011 and 2012, the F-35B test program made 
significant progress and has demonstrated key capabilities that confirm 
the aircraft will meet our requirements. As of 17 May 2013, the F-35B 
has conducted 1,129 test flights for a total of 1,588.1 test flight 
hours, and has successfully completed initial ship trials, air start 
testing, and released both precision and air-to-air weapons. The 
testing of STOVL performance capabilities continues to expand the 
envelope resulting in our first operational vertical landing in March 
2013 at MCAS Yuma, Arizona.
    The Marine Corps' transition to the F-35B STOVL is well under way 
with the establishment of VMFAT-501, the Fleet Replacement Squadron, 
and VMFA-121, the first tactical squadron. VMFAT-501 currently executes 
a full training schedule for F-35B transition pilots and maintainers. 
VMFA-121, which stood up in November 2012, now has 4 F-35Bs and will be 
fully outfitted with 16 F-35Bs by this fall.
    The F-35B supports the rapidly changing nature of expeditionary 
operations by providing flexible basing options that allow tactical 
aircraft to improve responsivenes and increase sortie generation rates. 
The value of STOVL has been demonstrated repeatedly, most recently in 
combat operations ashore, through the use of forward operating bases 
(FOBs) in Iraq and Afganistan, as well as during embarked operations 
throughout Central Command's Area of Responsibility.
    Based on the testing completed to date we are confident the Marine 
Corps' requirement for one tactical aircraft type, capable of multiple 
missions, providing the MAGTF with flexible expeditionary basing and 
the superior technology needed to dominate the fight is the F-35B. 
There are no alternatives to the F-35B that support the full range of 
crisis response obligations of the United States Marine Corps.
    Mr. Thornberry. It is clear that the world is getting more 
dangerous, not less. The situation with North Korea makes that very 
clear. Iran is moving toward a potential nuclear weapon. We know that 
Russia and China are developing advanced stealth fighters and 
proliferating advanced surface-to-air missile systems. Can you discuss 
the importance of the advanced stealth capability that the F-35 will 
give us and our allies in the future to meet the increasing threats 
around the world?
    General Schmidle. The F-35's low observable survivability, powerful 
integrated sensor suite, fused information displays, interoperable 
joint connectivity, precision weapons suite, and self-protect anti-air 
weapons, is a total package of capabilities that will revolutionize our 
Naval Air combat power in all threat and operational environments. The 
advanced fifth-generation stealth capability allows our aviation 
elements to operate in threat environments not compatible with fourth-
generation aircraft without extensive and intensive electronic warfare 
augmentation. By using the F-35 in these high threat environments we 
reduce exposure, increase survivability, and improve overall mission 
effectiveness with tailored and precision application.

    Mr. Thornberry. Can you speak to the additional capability the F-35 
will bring to the Fleet and the program's importance to the Navy's 
Tactical Aviation recapitalization efforts?
    Admiral Moran. The F-35C provides a 5th generation fighter aircraft 
to the Navy carrier air wing and brings with it the ability to 
effectively engage and survive a wide range of threats, both air and 
surface, in contested airspace. It provides a ``day-one'' strike 
capability enabling tactical agility and strategic flexibility required 
to counter a broad spectrum of threats and win in operational scenarios 
that cannot be addressed by current legacy aircraft, including 
operations in an anti-access/area denied environment. Key additive 
capabilities that F-35C will bring include very low observable stealth 
characteristics and fused active and passive sensors that will enhance 
the inherent stealth design. These fully integrated capabilities will 
allow F-35C to retain a `first detect/first shot' capability throughout 
the battlespace. F-35C's survivability and lethality will fully 
integrate with the other Navy Carrier Strike Group assets and provide 
increased real-time situational awareness to all other networked 
assets. As such, F-35C offers complementary, additive capability to F/
A-18E/F in numerous mission areas. A force equipped with F-35C aircraft 
enables combatant commanders to attack targets day or night, in all 
weather, in highly defended areas of joint operations. Target set 
includes: fixed and mobile land targets; enemy surface units; and air 
threats (including advanced cruise missiles). F-35C will supplant some 
of the aging Navy TACAIR inventory by replacing legacy F/A-18C aircraft 
and early blocks of the F/A-18E/F. F-35C procurement remains a vital 
element of the Navy's strike-fighter force mix.

    Mr. Thornberry. Affordable F-35 recapitalization is dependent on 
capturing economies of scale as quickly as possible by increasing 
production as quickly as possible. It finally appears that the 
Department has stabilized the production rate for the F-35 program and 
is committed to increasing the ramp rate beginning in FY-15. Contrary 
to the public perception, unit costs have been coming down year-to-
year. What do you expect the cost of the F-35A CTOL variant to be when 
the program reaches full-rate production in FY 18?
    General Davis. Based on the current production profile, the 
estimated unit recurring flyaway cost (URF) for the F-35A will be 
approximately $87 million (TY$) in FY18. The URF cost includes the 
airframe, electronics, engine and engineering change orders. The 
estimated flyaway cost is approximately $96 million (TY$) in FY18. The 
flyaway cost adds in non-recurring and ancillary equipment costs. The 
F-35A unit cost is subject to change if the U.S. Services or partner 
nations adjust their procurement profiles.

    Mr. Thornberry. It is clear that the world is getting more 
dangerous, not less. The situation with North Korea makes that very 
clear. Iran is moving toward a potential nuclear weapon. We know that 
Russia and China are developing advanced stealth fighters and 
proliferating advanced surface-to-air missile systems. Can you discuss 
the importance of the advanced stealth capability that the F-35 will 
give us and our allies in the future to meet the increasing threats 
around the world?
    General Davis and General Field. Since World War II, the U.S. has 
relied on its ability to control the skies over the battlefield, 
protecting our forces and holding any adversary's targets at risk. Our 
potential adversaries are keenly aware of the importance of air 
superiority to our nation's way of war. This is why the development and 
proliferation of weapon systems that contest our asymmetric advantage 
in the air are increasingly prevalent. For the past 30 years, our 
fighter fleet remained ahead of this evolving threat, superbly 
performing all its missions and supporting the joint warfighter in 
operations such as EL DORADO CANYON, DESERT STORM, ALLIED FORCE, 
ENDURING FREEDOM and IRAQI FREEDOM. However, even during these 
conflicts we sometimes faced threat systems that posed a significant 
threat to our legacy fighter fleet. For example, during the first days 
of DESERT STORM only our fleet of F-117 stealth fighters was able to 
safely operate and survive in the highly contested skies over Baghdad.
    We believe that air superiority remains an imperative when fighting 
any adversary and maintaining the ability of our aircraft to penetrate 
and persist in contested environments is vital to the joint warfighter. 
As you mention, the threats we may face continue to evolve in 
technology and complexity. Potential adversaries are acquiring advanced 
fighters on par with or better than our legacy fleet, developing 
sophisticated and networked early warning radar surveillance systems, 
and fielding surface to air missile systems with increasing range and 
lethality. These capabilities all work together to create advanced, and 
extremely dangerous, integrated air defense systems (IADS). These anti-
access/area denial environments seriously challenge our ability to gain 
air superiority and hold targets at risk. We already face this 
challenge in some parts of the world and as you said, and these threat 
environments will continue to expand as these systems proliferate.
    Our legacy fleet is approaching the limits of capability 
modernization that permits them to survive and operate in these 
environments--they simply do not have the advanced stealth capability 
required to defeat the emerging threats. Only our fifth generation 
fighter fleet's combination of advanced stealth, precision weapons, 
unmatched electronic warfare systems, fused multi-spectral battlespace 
awareness, combat identification systems, maneuverability, and speed 
has the ability to operate and survive in these advanced threat 
environments. All these capabilities inherent in the F-35, particularly 
its advanced stealth properties, ensure the U.S. and our allies have an 
air superiority advantage, and will enable our combatant commanders to 
bring the full spectrum of capabilities of the joint force to the 
fight.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. This committee has been concerned with the strength 
of the Department of the Navy's tactical aviation fleet. Specifically, 
we have questioned the inventory size and how the Navy planned to 
manage a strike fighter force structure in the near and long term. The 
Navy has a requirement for 40 VFA squadrons to fill 10 Carrier Air 
Wings (CVWs) with 4 squadrons each. Of these squadrons, the Navy has 35 
VFA squadrons, and the Marine Corps provides 3 squadrons with an 
agreement to supply five squadrons. Does the DON have enough Strike 
Fighter squadrons to fill 10 Carrier Air Wings and still meet all the 
USMC commitments, including overseas rotations and MEU deployments? Or, 
are you several squadrons short of the requirement? Does the strike 
fighter inventory model take into account these missing squadrons? The 
Fiscal Year 2014 budget request also shows that the Navy eliminated 13 
Super Hornets it was supposed to buy this year. However, somehow the 
tactical aviation shortfall was reduced. How can you account for this 
reduction in aircraft and a corresponding reduction in the shortfall? 
What is the tactical aviation shortfall this year?
    Admiral Skinner and Admiral Moran. The Navy and Marine Corps have 
sufficient strike fighter capacity. We continue to carefully monitor 
strike fighter inventory requirements and projected availability and 
will continue to take management actions to meet all carrier-based and 
expeditionary TACAIR requirements.
    DON utilizes the Inventory Forecasting Tool (IFT) to project the 
combined effects of transition plans, attrition, and pipeline 
requirements on total strike fighter aircraft inventory. The IFT is 
updated in conjunction with annual budget submissions to provide a 
forecast of strike fighter inventory compared to requirements. This 
model does take into account the current force structure gap in TACAIR 
integration.
    The shortfall number decreased significantly from last year's 
estimate due to 3 primary factors: (1) lower utilization rates on Super 
Hornets, specifically F/A-18Fs, (2) aircraft that successfully 
completed High Flight Hour (HFH) inspections that were allowed to fly 
an additional 1000 flight hours instead of the originally planned 
additional 600 flight hours. These 400 additional flight hours per 
aircraft extended service life by up to two years, (3) PB-13 includes a 
Congressional add of 11 F/A-18E/F in FY-13, which settles the POR at 
563. The Strike Fighter Shortfall is projected to peak at 18 in 2023.

    Mr. LoBiondo. This committee has questioned the inventory size and 
how the Navy planned to effectively manage a strike fighter inventory 
in the near and long term. Last year, the Marine Corp emphasized a 
service life extension program (SLEP) for 150 F/A-18A-D aircraft, which 
would help bridge to the F-35B when squadrons become combat 
operational. This year, briefings indicate a new high flight hour 
inspection regime for aging legacy aircraft in order to maintain 
adequate force structure. However, the committee is getting reports 
that the Government depot-level inspections for tactical aviation are 
taking far longer than anticipated, and at a greater cost. For 
instance, there are reports from the Navy that 42% of legacy Hornet--F/
A-18A-D models--are ``out of reporting.'' Moreover, inspections that 
were scheduled to take only 180 days are estimated to be taking at 
least twice as long. And, the Navy released a Request for Information 
(RFI) to the industry on capabilities available to support these depot 
inspections, in part because there is a rapidly building backlog of 
aircraft awaiting inspection. The costs and schedule analysis have not 
been provided to the committee on this new policy, so it remains 
uncertain that it will sufficiently address our concerns about 
inventory shortfalls. General, can you discuss the new high flight hour 
inspection and SLEP plan for legacy aircraft? And has there been an 
analysis on the costs and schedule of this new process? Can you tell 
the committee what percentage of your fleet is trending ``out of 
reporting''? Can you tell the committee what the actual throughput is 
for F/A-18A-D aircraft? Under the current plans, will the Marine Corps 
have enough squadrons to transition to the F-35B? What impact will this 
have on the aviators and maintainers to make this possible? What is the 
cost of this new inspection and SLEP plan across the FYDP?
    General Schmidle. Q. General, can you discuss the new high flight 
hour inspection and SLEP plan for legacy aircraft?
    A. In order to meet our operational commitments through 2030, the 
DON plans to extend the life on 150 F/A-18A-D aircraft to 10,000 flight 
hours by way of the Service Life Extension Program (SLEP). All other F/
A-18A-D aircraft will complete a high flight hour (HFH) inspection at 
the depot prior to reaching the current service life limit of 8000 
hours. Once complete, the aircraft will be granted an extension 
authorization to 9,000 hours with recurring operational level 
inspections at 200 hour intervals. If done with no other added work 
such as other regularly scheduled Planned Maintenance Interval (PMI) 1 
or 2, Center Barrel Replacement (CBR), or other avionics modifications, 
it is called a ``Stand Alone.'' To date, the DON has completed 101 HFH 
inspections and the issues identified were consistent with 
anticipations. In addition to the HFH inspection, each of these 
aircraft required engineering analysis and follow-on repairs or parts 
replacements in order to return them to an operational status.
    Q. Has there been an analysis on the costs and schedule of this new 
process?
    A. There has been analysis on the costs and schedule of HFH 
Inspections. The data is provided below. Ninety-eight HFH inspections 
have been completed at the Fleet Readiness Centers since 2008 and every 
year the NAVAIR 4.2 Cost Team evaluates the cost and schedule based on 
updated information. The results are then compared to the existing FYDP 
and adjusted requirements are forwarded up through the budgeting 
process.
    The ``HFH Stand Alone'' turn-around time is averaging approximately 
one year. The average cost of this inspection is currently $447,186. 
These are not simple inspections. Aircraft inducted into the depot have 
required extensive repair and there has not been a case where an 
aircraft only required the inspection making it difficult in attaining 
the 180 day turn-around goal. The main contributors are material and 
engineering dispositions, both of which are being closely monitored and 
standardized to improve throughput. As more SLEP modifications become 
available, they will be incorporated into aircraft inducted, 
alleviating long lead material and reducing turn-around times.
    Q. Can you tell the committee what percentage of your fleet is 
trending ``out of reporting''?
    A. As of the latest NAVAIR Flight Hour and Inventory Report (May 
2013), 115 of 258 USMC F/A-18A-D aircraft are ``out of reporting'' for 
various depot level maintenance events. This constitutes 45% (44.57%) 
of the USMC F/A-18 fleet. There is an increasing trend in ``out of 
reporting'' over the past year: May 2012 (88 of 245, 36%), Sep 2012 
(102 of 249, 41%).
    Q. Can you tell the committee what the actual throughput is for F/
A-18A-D aircraft?
    A. The throughput for F/A-18A-D HFH aircraft is shown below.


----------------------------------------------------------------------------------------------------------------
                       2008     2009     2010     2011     2012    2013    2014    2015    2016    2017    2018
----------------------------------------------------------------------------------------------------------------
Total                .......  .......  .......  .......  .......  ......  ......  ......  ......  ......  ......
 ``Projected'' High                                               ......  ......  ......  ......  ......  ......
 Flight Hour (HFH)                                                54      60      50      55      35      25
 Inductions
----------------------------------------------------------------------------------------------------------------
Actual                   17       22       21       43       62       25  ......  ......  ......  ......  ......
 Induction Total
----------------------------------------------------------------------------------------------------------------
Actual                   3        13       17       22       32       11  ......  ......  ......  ......  ......
 Completion Total
----------------------------------------------------------------------------------------------------------------

    Average throughput over 6 years (2008-2013) = 51% of A/C inducted 
(98 completed of 190 aircraft inducted).

    Q. Under the current plans, will the Marine Corps have enough 
squadrons to transition to the F-35B?
    A. Assuming the current JSF delivery plan is not reduced or 
delayed, the USMC will have enough squadrons to complete the TACAIR 
transition to the F-35. Successful implementation of the USMC TACAIR 
transition plan will be extremely difficult if the growing out of 
reporting problem in the USMC F/A-18A-D community is not addressed. 
More importantly, if the depot maintenance throughput is not 
significantly improved, the backlog of aircraft at the depot will 
increase to a point at which it will affect our ability to properly 
equip forward deploying units during the transition.
    Q. What impact will this have on the aviators and maintainers to 
make this possible?
    A. The F/A-18 out of reporting problem is driving USMC squadrons to 
train and operate at less than the planned mission aircraft 
authorization (PMAA) of 12 aircraft. Currently the USMC F/A-18 fleet 
averages 9 aircraft per squadron, not including the FRS. This aircraft 
deficit poses a unique dilemma to aviators: 1. Fly a smaller number of 
aircraft at a much higher utilization rate to maintain combat 
readiness, or 2. Sacrifice combat readiness to maintain planned 
utilization rates on the available aircraft. The first option will 
drive aircraft to reach the 8000 hour limit at a greater rate further 
aggravating the depot backlog and throughput problems. The second 
sacrifices the combat readiness at a time when USMC TACAIR is 
experiencing high operational demand.
    Bottom line for aviators--projected lack of aircraft on the 
flightline will cause a downward trend in Marine Corps tactical 
aviation readiness. More importantly, if depot maintenance throughput 
is not significantly improved, the backlog of aircraft at the depot 
will increase to a point at which it will affect forward deployed 
units.
    For the maintainers at the squadron level--the fleet is currently 
annotating and analyzing the impact of the increase in man-hours 
incurred by the HFH recurring interval inspections.
    Q. What is the cost of this new inspection and SLEP plan across the 
FYDP?
    A. FY13 HFH inspections and SLEP plan are fully funded. The FYDP 
costs are shown below.

    HFH OMN Budget (in $M)

------------------------------------------------------------------------
 Current Budget FY (PB-14)    13      14      15      16      17     18
------------------------------------------------------------------------
HFH Inspection Budget       $26.5   $19.8   $17.0   $9.5    $14.8  $9.9
 (OMN)
------------------------------------------------------------------------


    SLEP APN-5 Budget ($636.56M FYDP)*

------------------------------------------------------------------------
Current Budget FY (PB-
        14) $M            13      14       15       16      17      18
------------------------------------------------------------------------
SLEP Budget             $54.63  $59.52  $111.64  $206.88  $106.7  $151.8
  (APN5 within OSIP 11-                                    2       0
 99)
------------------------------------------------------------------------

    *In PB-14, OSIP 11-99 (funding for SLEP/SLMP) was reduced by 
$697.28M across the FYDP (Issue #20025 -$99.26M & Issue #62294 -
$598.00M). This equates to a 52% reduction in funding for combined HFH 
and SLEP in PB-14.

    The average cost of the HFH Stand Alone inspection is currently 
$447,186 with turnaround times averaging 328 to 403 days depending on 
the depot site.

    Mr. LoBiondo. As you know, the F/A-18E/F Block II Super Hornet will 
be part of the Navy's aviation backbone for the next 25 years and 
beyond. Both the Super Hornet and the F-35C will be providing force 
projection for our carriers. Because of its importance to the long-term 
health of tactical aviation, the Committee understands that there are 
efforts under way to support advancements to the current Block II 
platform. At Navy League last week there were presentations on both the 
funded ``Flight Plan'' of the Super Hornet and additional advancements 
being considered. Can you talk about the importance of a modernization 
program for the Super Hornets in order to take that aircraft out the 
next 25 years or more?
    Admiral Moran. F/A-18E/Fs will remain critical multimission assets 
in the air wing of the future and will complement the first-day/first-
strike capability of the F-35C. As the bulk of the strike/fighter 
force, the Super Hornet will continue to execute many of the same 
mission sets as the F-35C and will be expected to serve as a primary 
delivery platform for long-range air-to-air and air-to-surface weapons. 
Continued upgrades to the F/A-18E/F platform are critical. Efforts to 
modernize the 2025 Carrier Air Wing (CVW) include integration of 
weapons and capabilities through coordinated management and 
synchronized requirements development with the flexibility and agility 
to meet any threat. The CVW leverages networked weapon system 
integration and interoperability to find, fix, track, target, engage 
and assess any threat by utilizing off board cueing, operating across 
the RF spectrum and with stealth technology to achieve full spectrum 
dominance to interrupt red effects chains. Future F/A-18E/F 
improvements such as Multifunctional Information Distribution System 
(MIDS) upgrades, Multi-System Integration (MSI) refinement, 
configuration modifications and improved Counter Electronic Attack 
(CEA) for the Advanced Electronic Scanned Array (AESA) radar, 
introduction of the long-wave Infra-Red Search and Track (IRST) pod, 
Advanced Targeting Forward Looking Infra-Red (ATFLIR) pod enhancements 
and improved weapons integration will allow the Super Hornet to meet 
the capability requirement of the 2025 CVW.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Mr. Sullivan, your most recent report identifies a 
number of technical risks the program faces that could substantially 
degrade the F-35's capabilities and mission effectiveness. Can you 
please identify the major technical risks the program faces going 
forward. What is the status of these risks? Specifically, with regard 
to the Helmet Mounted Display, what risks remain and what actions are 
being taken in order to reduce these risks?
    Mr. Sullivan. The key areas of risk we highlighted in our March 
2013 report were the Autonomic Logistics Information System (ALIS), the 
arresting hook system for the carrier variant aircraft, structural 
durability, the Helmet Mounted Display (HMD), and software integration 
and testing. \2\ While the program still faces a number of challenges 
going forward, it has taken positive steps to address risk in these 
areas. For example, limited capability ALIS systems are now being used 
at training and test locations and the program has made progress in 
developing the smaller, transportable version needed to support unit 
level deployments with the expectation that a fully capable system will 
be fielded in 2015. The program has completed the redesign of its 
carrier variant arresting hook system, conducted risk reduction testing 
on the new hook point, and expects to begin flight testing the entire 
redesigned system in late 2013. The program is also testing redesigned 
structures and planning for other modifications that are needed to 
address problems identified during the aircraft's structural and 
durability testing.
---------------------------------------------------------------------------
    \2\ GAO, F-35 Joint Strike Fighter: Current Outlook Is Improved, 
but Long-Term Affordability Is a Major Concern, GAO- 13-300 
(Washington, D.C.: Mar 11, 2013).
---------------------------------------------------------------------------
    With regard to the HMD, the original design encountered significant 
technical deficiencies and did not meet warfighter requirements. Those 
deficiencies included degraded night vision capability, display jitter, 
and latency (or delay) in transmitting sensor data. Program officials 
stated that software updates are being made to improve night vision 
capability, filters are being added to displays to decrease jitter, and 
data latency is not as severe as originally assumed. Early 
developmental testing of these updates has shown improvement, according 
to program officials, but risks remain as additional testing still 
needs to be done. In addition, the program is pursuing a dual path by 
developing a second, less capable helmet while working to fix the first 
helmet design. Both helmets are being evaluated, and while DOD may make 
a decision as to which helmet to procure later this year, the selected 
helmet is not expected to be integrated into the baseline aircraft 
until 2015.
    Software integration and testing continue to pose significant risks 
to the program, although the aircraft contractor and program office 
have recently taken steps that are likely to improve software 
management and output. The number of lines of code necessary to achieve 
full mission capability is now estimated to be to over 24 million. 
While most of the code has been developed, a substantial amount of 
integration and test work remain before the program can demonstrate 
full warfighting capability. The specific software needed to 
demonstrate that capability including electronic warfare, communication 
navigation identification, and radar is behind schedule, and the most 
challenging work still lies ahead.
    Mr. Turner. Mr. Sullivan, for years GAO has been a critic of the 
JSF program with regard to cost growth and schedule delays, yet your 
most recent report seems to indicate things are getting better. What 
changes has the program made in order to set it on a new path? Going 
forward, what critical challenges remain for the program from a cost 
and schedule standpoint?
    Mr. Sullivan. After 12 years and more than $20 billion dollars in 
development cost growth, the department has fundamentally restructured 
the F-35 program. In doing so, it has steadily lowered the production 
ramp-up rate over the past 3 years and cut near term procurement 
quantities. This means that fewer aircraft are being procured while 
testing is still ongoing, which lowers the risk and cost of having to 
retrofit and modify aircraft. The new development flight test schedule 
is also more realistic and better resourced, using more conservative 
assumptions about fly rates and test point achievements and providing 
for more flights and more test assets. In addition, the acting Under 
Secretary of Defense for Acquisition, Technology, and Logistics has 
established unit cost affordability targets for each variant of the 
aircraft that the program is expected to meet by the start of full-rate 
production in 2019. In the area of software management, the program 
began the process of establishing a second system integration 
laboratory, adding substantial testing and development capacity, and 
prioritizing its resources on incremental software development as 
opposed to the much riskier concurrent development approach.
    Going forward, affordability and concurrency between testing and 
production will continue to pose significant cost and schedule 
challenges for the F-35 program. The new acquisition program baseline 
projects the need for a total of $316 billion in development and 
procurement funding from 2013 through 2037--which represents an average 
of more than $12 billion annually. Maintaining this level of sustained 
funding will be difficult in a period of declining or flat defense 
budgets and competition with other ``big ticket items'' such as the KC-
46 tanker and a new bomber program. In addition, the program's highly 
concurrent test and production schedule poses significant risk going 
forward. With nearly two-thirds of the developmental test program 
remaining, additional time and money will likely be needed for 
retrofits and rework of procured aircraft. At the time of our report, 
the program office projected retrofit and rework costs of $1.7 billion 
on aircraft procured under the first 10 annual contracts.
    Mr. Turner. Mr. Sullivan, as you know, the JSF acquisition program 
is expected to require over $300 billion still to complete the 
acquisition and $1 trillion to operate and sustain the aircraft. How do 
you view affordability as a challenge for the program?
    Mr. Sullivan. Affordability poses a challenge because sustaining an 
annual acquisition funding level of over $12 billion on average from 
2013 through 2037, as currently projected, will be difficult in a 
period of declining or flat defense budgets and given the competition 
for funding from other ``big ticket items'' such as the KC-46 tanker 
and a new bomber program. It should also be noted that the program's 
current funding projections assume financial benefits from 
international partners purchasing at least 697 aircraft. If fewer 
aircraft are procured in total or in smaller annual quantities--by the 
international partners or the United States--unit costs will likely 
rise according to analysis done by the Office of the Secretary of 
Defense, Cost Assessment and Program Evaluation office.
    In addition, current F-35 life-cycle cost estimates are 
considerably higher than the legacy aircraft it will replace; this has 
major implications for future demands on military operating support 
budgets and plans for recapitalizing fighter forces. The most recent 
estimate by the Director of Cost Assessment and Program Evaluation 
projects total U.S. operating and support costs of over $1 trillion for 
all three variants based on a 30-year service life and predicted usage 
and attrition rates. Defense leadership stated in 2011 that sustainment 
cost estimates of this magnitude were unaffordable and simply 
unacceptable in this fiscal environment. U.S. military services and 
international partners have all expressed concerns about long-term 
affordability. The program has undertaken efforts to address this life-
cycle affordability concern, but until DOD can demonstrate that the 
program can perform against its cost projections, it will continue to 
be difficult for the U.S. and international partners to accurately set 
priorities, establish affordable procurement rates, retire aged 
aircraft, and establish supporting infrastructure.

    Mr. Turner. You mentioned in your written testimony that F-35 
sustainment costs remain a concern. What actions are the F-35 Joint 
Program Office and the Department of the Navy taking to reduce F-35 
life-cycle costs?
    Admiral Skinner. The Department of the Navy (DON) continues to 
support the F-35 program in its disciplined approach to analyzing and 
reducing sustainment costs. The F-35 program is conducting a 
sustainment business case analysis to identify cost reduction 
initiatives. The program recently held an industry day to foster 
competition for sustainment contracting, specifically targeting supply 
chain, support equipment, training operations support, and Autonomic 
Logistics Information System administration. A focused reliability and 
maintainability program is identifying cost drivers based on actual 
fleet data. These cost drivers can be targeted for improvements, either 
by redesign or qualification of a second source. The program also uses 
contracting standards for suppliers to reduce repair times. As the 
services fund depot standup, this will also increase the sources for 
repair, improving quality and repair times.
    Importantly, the services and JPO now have a common definition of 
cost per flight hour. This seemingly simple step will allow the 
services to investigate the underlying assumptions for cost drivers 
such as training, mission personnel, engineering support, and assumed 
annual flight hours.
    The DON, working with the F-35 program, will analyze options 
outside the Program Executive Office's span of control such as 
reviewing basing option and sequencing, unit level manpower and 
squadron size, discrete sustainment requirements, and appropriate use 
of simulation for training. Work is under way for a level of repair 
analysis to maximize cost effectiveness and fully exploit existing 
service maintenance infrastructure. Such efforts yielded savings for 
legacy platforms, such as MV-22 and EA-18G.
    Through these combined efforts, the Department of the Navy believes 
the PEO can converge on an affordable F-35 sustainment strategy that 
meets the required level of service performance and lowers the total 
life cycle cost of the program.
    Mr. Turner. The Navy's Broad Area Maritime Surveillance Program had 
assumed cost savings in production and operations and maintenance 
because of Global Hawk program shared overhead, training, basing costs, 
and other operations and sustainment costs. In addition, there is the 
possibility of a break in the production line, with Global Hawk Block 
30 termination, given the current BAMS production schedule. Do you know 
what these costs will be?
    Admiral Skinner. The United States Air Force decision to terminate 
the Global Hawk Block 30 Lot 11 production contract in President's 
Budget 2013 has resulted in a gap on the production line that will cost 
the Navy MQ-4C Triton program an estimated $27M (Research, Development, 
Test & Evaluation, Navy). Final cost estimates will not be known until 
the Navy negotiates the Low Rate Initial Production contract with the 
Prime Contractor.

    Mr. Turner. Your written testimony notes that the Marine Corps may 
experience elevated operational risk in the 2020s if the predicted 
strike fighter shortfall comes to fruition. Please describe why you 
believe the Marine Corps faces this elevated operational risk and what 
the Department of the Navy is doing to mitigate those risks.
    General Schmidle. As legacy F/A-18 squadrons are reduced, the 
service shortfall number must be considered in proportion to the 
primary mission aircraft inventory requirement. Due to a lower number 
of F/A-18 squadrons in the 2023 to 2026 timeframe, the shortfall number 
associated with the Marine Corps will have a more significant impact on 
our remaining F/A-18 operational squadrons. For example, in 2023 the 
USMC F/A-18 fleet will have three active and one reserve squadron 
remaining. A shortfall of (11) F/A-18 aircraft would comprise 
approximately one quarter of the total squadrons or one third of the 
active component.
    The Department of the Navy (DON) continues to manage aircraft 
service life of each aircraft at the operational level in order to 
achieve the maximum allowable service life limits prior to its sundown. 
The continued engineering and Service Life Extension Program (SLEP) kit 
development over the FYDP will ensure there is sufficient inventory to 
meet DON requirements through the transition to the F-35.
    Mr. Turner. The total Department of the Navy strike fighter 
shortfall is 18 aircraft in approximately 2023. Of that amount, what is 
the Marine Corps strike fighter shortfall?
    General Schmidle. The Marine Corps' portion of the Department of 
the Navy strike fighter shortfall in 2023 is 11 aircraft according to 
the latest excursion of the Inventory Forecasting Tool (IFT v21 
excursion C012).
    Mr. Turner. Your written testimony notes that Marine aviation is on 
a path toward a distributed Airborne Electronic Attack system of 
systems including both unmanned and manned assets. Please describe the 
number and types of unmanned and manned assets that will be part of 
this system.
    General Schmidle. The Marine Corps anticipates a future operating 
environment comprised of advanced Electromagnetic Spectrum (EMS) 
Warfare and digital threats. The Marine Corps will address these 
threats with the Marine Air Ground Task Force Electronic Warfare (MAGTF 
EW) concept. This approach will leverage all available transmitters and 
sensors across the MAGTF on both manned and unmanned platforms. A 
coordination cell comprised of EMS, Cyber, Operations, Intelligence, 
and Communications subject matter experts (SME) will collectively 
integrate collections and effects-delivery efforts in real-time. The 
Marine Corps will no longer depend on a large single-purpose platform, 
since the low-density, platform-centric approach has proven 
insufficient for meeting capacity requirements. MAGTF EW systems will 
be capable of networking with Marine and Joint assets spanning the air, 
ground, space, and cyber domains.
    Any current or future airframe employed in support of MAGTF 
operations will maintain the ability to host advanced EMS payloads in 
support of integrated Spectrum and Cyber Operations. The Intrepid Tiger 
II Electronic Warfare pod, currently deployed to Central Command 
(CENTCOM) and aboard Marine Expeditionary Units (MEUs), is one such 
payload example. The types and numbers of these platforms and systems 
will be based on Service capacity and future mission requirements. 
These platforms specifically include future Group 4/5 UASs, RQ-21, F-
35, KC-130J, AV-8B, F/A-18, AH-1, though any aircraft in the inventory 
will be capable of serving as a host platform in the distributed 
capability network. As the future linchpin of Marine Corps Tactical 
Aviation, the F-35 JSF will contribute by reducing counter-integrated 
air defense systems (C-IADS) requirements due to its inherent Spectrum 
survivability, and adding decisive networked attack and exploitation 
capabilities in EMS regions of significance.
    While the Marine Corps is currently achieving combat success with 
EMS payloads on manned platforms in theater and adding such capability 
to deployed Marine Expeditionary Units, the application of airborne 
Spectrum Warfare will increasingly gravitate towards UAS platforms. 
Marine Corps Aviation is actively exploring options to expand its UAS 
fleet with larger platforms to provide requisite size, weight, and 
power to perform a combination of standoff and penetrating Spectrum 
Attack operations. This approach will enable a deliberate Spectrum 
Warfare portfolio growth from communications-based targets by 
incorporating RADAR-based targets, directed-energy (DE) and LASER 
targets, as well as targets susceptible to low-yield electromagnetic 
pulse (EMP). Additionally, the Marine Corps is exploring the viability 
and readiness of advanced (medium-high Technology Readiness Level) 
Spectrum Attack technologies to augment baseline Intrepid Tiger 2 
capability for future incorporation.
    Mr. Turner. Like the Air Force, Naval air forces require 
inventories of precision air-to-air and air-to-ground munitions. Please 
describe which inventories and short of requirements and provide the 
committee a list of those munitions and amounts above the budget 
request that could be executed in fiscal year 2014.
    General Schmidle. The following list of precision air-to-air and 
air-to-ground Naval munitions have been identified as falling short of 
their requirement, as defined by the POM-14 Naval Munitions 
Requirements Process (NMRP) output, and can execute the amounts shown 
above the budget request that could be executed in fiscal year 2014.

        AIM-9X: $135M for an additional 350 missiles.
        AARGM: $16.5M for an additional 22 missiles.
        JSOW C-1: $28M for an additional 92 weapons.

        GP Bombs: $237.8M for the additional components below:
                --JDAM tail kits ($72M, QTY 3,000)
                --Laser JDAM ($50.4M, QTY 3,500)
                --GBU-12 ($12M, QTY 3,000)
                --GBU-10 ($3.5M, QTY 700)
                --Computer Control Groups ($24M, QTY 2,000)
                --BLU-109 Bomb Body ($64M, QTY 2,000)
                --FMU-143 fuze ($11.9M, QTY 3,500)

        Rockets: $118M for the additional components below:
                --M151/MK152 HE Warhead ($18M, QTY 12,917)
                --MK 66 MOD 4 Rocket Motor ($24.3M, QTY 41,258)
                --WTU-1/B Inert Warhead ($1.1M, QTY 12,881)
                -- WGU-59/B APKWS II Guidance and Control Section 
                ($74.3M, QTY 2,564)
                --LAU-61 G/A Digital Rocket Launcher ($0.28M, QTY 5)
    Mr. Turner. In your statement you note that initial operational 
capability (IOC) dates have not been determined by leadership but you 
describe capabilities for IOC such as 10 F-35B aircraft with software 
block 2B for the Marine Corps, and 10 F-35C aircraft with software 
block 3F for the Navy. You also mention that you will report those 
dates by June 1st of this year. Based on the current F-35 development 
and procurement schedule, can you estimate what year the F-35B and F-
35C will be declared IOC?
    General Schmidle. IOC dates are capability based, and the services 
will declare IOC dates in a report to Congress due by 1 June 2013. The 
current F-35B IOC plan is based on appropriate software, weapon 
clearances, performance envelope, training, deployability, and 
sustainment capabilities. The Marine Corps estimates it will declare 
IOC for the F-35B between July 2015 (objective) and December 2015 
(threshold).

    Mr. Turner. Like the Air Force, Naval air forces require 
inventories of precision air-to-air and air-to-ground munitions. Please 
describe which inventories and short of requirements and provide the 
committee a list of those munitions and amounts above the budget 
request that could be executed in fiscal year 2014.
    Admiral Moran. The following precision air-to-air and air-to-ground 
Naval munitions have been identified as being short of their inventory 
requirement. The funding above the PB14 budget request that could be 
executed in fiscal year 2014 is also provided below.

        AIM-9X: $58.1 for an additional 150 missiles.
        AARGM: $16.5M for an additional 22 missiles.
        JSOW C-1: $28M for an additional 92 weapons.

        GP Bombs: $237.8M for the additional components below:
                --JDAM tail kits ($72M, QTY 3,000)
                --Laser JDAM ($50.4M, QTY 3,500)
                --GBU-12 ($12M, QTY 3,000)
                --GBU-10 ($3.5M, QTY 700)
                --Computer Control Groups ($24M, QTY 2,000)
                --BLU-109 Bomb Body ($64M, QTY 2,000)
                --FMU-143 fuze ($11.9M, QTY 3,500)

        Rockets: $118M for the additional components below:
                --M151/MK152 HE Warhead ($18M, QTY 12,917)
                --MK 66 MOD 4 Rocket Motor ($24.3M, QTY 41,258)
                --WTU-1/B Inert Warhead ($1.1M, QTY 12,881)
                -- WGU-59/B APKWS II Guidance and Control Section 
                ($74.3M, QTY 2,564)
                --LAU-61 G/A Digital Rocket Launcher ($0.28M, QTY 5)
    Mr. Turner. In your statement you note that initial operational 
capability (IOC) dates have not been determined by leadership but you 
describe capabilities for IOC such as 10 F-35B aircraft with software 
block 2B for the Marine Corps, and 10 F-35C aircraft with software 
block 3F for the Navy. You also mention that you will report those 
dates by June 1st of this year. Based on the current F-35 development 
and procurement schedule, can you estimate what year the F-35B and F-
35C will be declared IOC?
    Admiral Moran. In accordance with the FY13 NDAA Conference Report 
(112-705) on H.R. 4310, the Secretary of the Navy will submit, along 
with the Secretary of the Air Force, a report to Congress declaring IOC 
dates for all three variants of the Joint Strike Fighter by June 1, 
2013.

    Mr. Turner. You mentioned in your written testimony that depot 
delays will require the grounding of some of the affected aircraft, and 
that sequestration cuts to Air Force modernization will impact every 
one of the Air Force's investment programs, creating inefficiencies, 
raising unit costs, and delaying delivery of valued capabilities to 
warfighters in the field. You also note that the Fiscal Year 2014 
budget request does not enable full recovery of warfighting capability, 
capacity and readiness and that additional resources will be required. 
a. What effects will sequestration have in the current fiscal year on 
the Air Force fighter inventory? b. What additional resources will be 
required in fiscal year 2014 to make the fighter fleets whole again?
    General Davis. a. The Air Force fighter force structure requirement 
is currently 1,900 TAI (Total Active Inventory), and 1,100 PMAI 
(Primary Mission Aircraft Inventory, or ``combat-coded'' fighter 
aircraft). Because these force structure numbers are minimums set to 
meet our National Military Strategy at increased aggregate risk, the 
Air Force is actively managing force structure to offset the effects of 
sequestration. Although sequestration itself will not affect the 
tactical fighter inventory in the current fiscal year in terms of PMAI, 
some fighter units are currently stood down and will likely remain so 
throughout FY13. Overall, sequestration has created significant 
readiness shortfalls and reduced our ability to meet future steady-
state and surge requirements. Examples of sequestration impacts include 
postponement of field level maintenance and depot inductions, 
reductions in depot production and interruption of aircraft 
modification and modernization efforts. Based on the force structure 
minimum of 1,900 TAI/1,100 PMAI, the Air Force's ability to meet the 
National Military Strategy is already at increased risk, and 
sequestration exacerbates the Air Force's near term readiness impacts 
and its ability to meet future requirements.
    b. It will take 3-6 months and additional funding to bring stood 
down fighter squadrons back to their pre-sequestration readiness 
levels, which were sub-optimal. Achieving full mission readiness goals 
will be a multiyear effort beyond what is achievable in FY14. For FY14, 
we estimate an additional 10% flying hours above PB14 levels for the 
stood down units, or approximately $115M. In addition, to recover the 
deferred FY13 depot actions for the fighter fleet overall will cost 
approximately $34M.
    Mr. Turner. You mentioned in your written testimony that all three 
mission areas in the air-to-surface munitions inventory are short of 
inventory objectives. Those missions are stand-off, direct attack, and 
penetrator munitions.
    a. Please provide the subcommittee a list of those muntions and 
amounts that could be increased to the budget request and, if 
authorized and appropriated, could be executed in fiscal year 2014.
    General Davis. Joint Air-to-Surface Standoff Missile (JASSM) is a 
conventional, low observable, cruise missile, with standoff ranges of 
200nm (JASSM Baseline) or 500nm (JASSM-ER). The current inventory for 
JASSM Baseline is approximately 1,060 units and objective inventory is 
approximately 2,000 units. The Air Force FY14 President's Budget (PB) 
request is $291.2 million for 103 JASSM Baseline units and 80 JASSM-ER 
units. The Air Force supports the FY14 PB. In order to reach the FY14 
production capacity of 175 JASSM Baseline units, an additional $81.4 
million is required. The currently inventory for JASSM-ER is 0 units 
and objective inventory is approximately 3,000 units. The FY14 PB 
request for 80 JASSM-ER units is the production capacity.
    Hellfire is a direct attack munition used to prosecute time-
sensitive targets. It is the only weapon employed on the MQ-1 Predator 
and the only forward firing weapon on the MQ-9 Reaper. The current 
inventory is approximately 2,000 units and objective inventory is 
approximately 5,000 units. The Air Force FY14 PB request is $48.5 
million for 413 units. The Air Force supports the FY14 PB. In order to 
reach the FY14 production capacity of 7,200 across the Army, Navy, Air 
Force, and FMS procurement, an additional $492.4 million is required.
    Small Diameter Bomb Increment II (SDB II) is a standoff miniature 
munition designed to kill mobile targets in adverse weather conditions. 
The current inventory is 0 units and objective inventory is 
approximately 12,000 units. The Air Force FY14 PB request is $42.3 
million for 144 units. The Air Force supports the FY14 PB. In order to 
reach the FY14 production capacity of 173, an additional $4.4 million 
is
required.
    Joint Direct Attack Munition (JDAM) is a field-installed guidance 
kit with global positioning system aided inertial navigation system 
(GPS/INS) that integrates on 500, 1,000, and 2,000 pound general 
purpose bombs. JDAM provides an accurate, adverse weather capability, 
and is integrated with the B-52H, B-2A, B-1B, F-16C/D, F/A-18A+C/D/E/F, 
F-15E, AV-8B, A-10C, and F-22A aircraft. The current inventory is 
approximately 96,200 units and objective inventory is approximately 
150,000 units. The Air Force FY14 PB request is $188.5 million for 
6,965 units (however, note that the FY14 Tail kit quantities in the 
FY14 budget documents are incorrect and should reflect 4,451 units, not 
6,965 units). The Air Force supports the FY14 PB. However, the Air 
Force also requested $85.5M for an additional 2,879 units in the FY14 
Overseas Contingency Operations. If only the FY14 PB is met, an 
additional $141.5 million is required in order to procure an additional 
5,428 units. However, if both the FY14 PB and the FY14 OCO requests are 
accepted,
an additional $66.5 million is required to procure an additional 2,549 
units. The
FY14 production capacity is 15,000 units across the Navy, Air Force, 
and FMS
procurement.
    Mr. Turner. We understand the inventory objective for the CV-22 
fleet is 50 aircraft, but when the last CV-22 is delivered in 2016, the 
inventory will total 49 aircraft due to a class A mishap of one CV-22 
in June of last year. Are there any plans to replace that aircraft to 
meet the CV-22 inventory objective of 50 aircraft?
    General Davis. The Air Force is currently exploring all funding 
options available to replace the CV-22 lost during training in June 
2012, before the CV portion of the production line starts closing down 
in FY14. However, with budget reductions and sequestration, near-term 
funding will be difficult to find.
    Mr. Turner. We noted that the Combat Rescue Helicopter program is 
currently in source selection. When is the contract award announcement 
planned?
    General Davis. The Air Force continues to press forward with the 
Combat Rescue Helicopter contract award and we are currently in the 
4QFY13/1QFY14 timeframe.

    Mr. Turner. You noted in your written testimony that the majority 
of the $1.32 billion across the Future Years Defense Program for F-16 
modernization will focus on the service life extension program (SLEP) 
and the combat avionics programmed extension suites (CAPES) for 300 F-
16s. You also note that you will have to SLEP and modernize more. Does 
that mean you're planning to accomplish the SLEP and CAPES 
modifications on more than 300 Block 40 and 50 F-16s? If so, how many 
additional F-16s will require the SLEP and CAPES modifications?
    General Field. The current requirement as defined in the FY14 
President's Budget is to SLEP and CAPES 300 F-16 aircraft. While there 
is no currently approved requirement to accomplish SLEP or CAPES 
modifications to more than 300, both the SLEP and CAPES programs are 
scalable up to 635 Block 40-52 F-16 aircraft. Potential certainly 
exists for the number of aircraft programmed for modification to shift 
from 300 (up or down) in order to address USAF requirements, but 
specifics pertaining to any potential shifts are not defined at this 
time.
    Mr. Turner. In your statement you describe a decreased fighter 
force structure of 1,900 total fighter aircraft as ``an increased 
risk'' to carry out the National Military Strategy, which is a 
reduction from a 2,000 fighter aircraft inventory 2 years ago. Please 
describe the increased risks in terms of meeting military objectives. 
What actions is the Air Force taking to reduce this risk? What actions 
can the Congress take to reduce this risk?
    General Field. The decision to reduce force structure was a very 
difficult one. From the mission risk perspective, a smaller force means 
that objectives may take longer to achieve; integrated air defense 
systems (enemy surface-to-air missiles and fighters, etc.) will take 
longer to defeat, thereby increasing the threat to our aircrews; there 
will be greater likelihood that the Air Force will not be able to gain 
and maintain air superiority, but may have to settle for temporary, 
local air superiority; and greater likelihood that joint/coalition 
ground (and possibly naval) forces will be at risk of enemy air attack 
for the first time since the Korean War. Insufficient capacity to 
support defense strategic guidance will result in more force 
substitutions at greater risk (particularly for air superiority 
missions), more difficulty conducting nearly simultaneous surge 
operations resulting in higher attrition and the potential for failure. 
Reduced capacity also drives a higher OPTEMPO leading to readiness 
degradation and reduced availability for enduring overseas operations. 
Within significant budgetary restrictions, the Air Force is mitigating 
these risks by modernizing and sustaining legacy fighters, by upgrading 
and procuring fifth generation aircraft, and by procuring preferred 
munitions. Congress can help reduce these risks by continuing to 
support the Air Force's fighter force structure with stable funding; 
supporting the minimum inventory requirement of 1900 fighter aircraft; 
allowing continued modernization and sustainment of legacy fighters, 
procurement of fifth generation aircraft, procurement of preferred 
munitions, and allowing the Air Force to close excess installations as 
part of a new Base Realignment and Closure process.
    Mr. Turner. What is the status of the Air Force's air-to-air 
weapons inventory? Are there shortages in the AIM-120 or AIM-9 
inventories? If so, please provide
additional amounts that could be executed in fiscal year 2014 to 
address those
shortages.
    General Field. AIM-120 Advanced Medium-Range Air-to-Air Missile 
(AMRAAM) is a beyond-visual-range missile used to counter existing and 
emerging air vehicle threats, operating at high or low altitude and 
having electronic attack (EA) capabilities). The current inventory is 
approximately 2,500 units and the objective inventory is approximately 
5,000 units. The Air Force FY14 President's Budget (PB) request is $340 
million for 181 units, which is the FY14 production capacity.
    AIM-9M Sidewinder Air-to-Air Missile is a short to medium-range 
infrared-guided missile. The current inventory is approximately 3,100 
units and the objective inventory is approximately 700 units. This 
missile is no longer in production, so there was no procurement FY14 PB 
request in the FY14 PB.
    AIM-9X Sidewinder Air-to-Air Missile is a short to medium-range 
infrared-guided missile, with enhanced detection and tracking 
capabilities, and increased maneuverability. The current inventory is 
approximately 1,100 units and the objective inventory is approximately 
1,800 units. The Air Force FY14 PB request is $120 million for 225 
units. The Air Force supports the FY14 PB. In order to reach the FY14 
production capacity of 800 units across the Navy, Air Force, and FMS 
procurement, an additional $135 million is required for an additional 
350 units.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER

    Mr. Barber. General Davis, thank you for your service to our Nation 
and your testimony before this committee today. In your testimony 
today, you mentioned improvements to the A-10 airframe to ensure its 
combat viability through 2035. I understand the A-10 is a critical 
close air support platform that the Services have come to rely upon for 
its effectiveness and precision. Truth be told, it is quite an iconic 
aircraft, and I'm proud to have A-10s in my district at Davis-Monthan 
Air Force Base. As the Air Force transitions a number of the A-10 fleet 
to the Reserve Component, how is the Air Force ensuring its Reserve 
fleet of A-10s are kept at the same level of readiness as their Active 
Duty counterparts?
    General Davis. Aircraft with existing wings that are considered 
beyond repair will get new wings, regardless of whether they are Active 
Component (AC) or Reserve Component (RC). The determination of which 
aircraft get new wings is based on an inspection of the wings when the 
aircraft is at the depot. RC aircraft will receive the standard block 
software upgrades (OFP). All AC and RC A-10s will receive the same OFP 
upgrades.

    Mr. Barber. General Field, thank you for your service to our Nation 
and your testimony before this committee today. I would like to begin 
first by saying I remain committed to solving the fiscal challenges and 
uncertainties facing our Nation today. I have said time and again that 
cuts applied in an across-the-board manner by sequestration are 
nonsensical and harmful to our national defense. While the CR provided 
the Department some flexibility, I am not satisfied. That being said, I 
understand the Department must adhere to the law and move forward with 
securing our national defense regardless. As the Department has begun 
to identify ways to be more efficient, top military leaders have stated 
that Building Partner Capacity will remain a critical tool for ensuring 
global stability. Air Force units in my State, Arizona, contribute 
significantly to this effort by training foreign pilots, and I am proud 
of their service and commitment to our global security. Over time, 
these airmen have developed an indispensable skill critical to the 
effort of Building Partner Capacity. I'm sure you can agree, as good 
stewards of U.S. resources, we cannot allow skills and expertise to 
erode as a result of sequestration. As such, it makes sense to ensure 
we recycle and maintain the expertise of our airmen as we integrate new 
technology. General, in this case, I'm talking specifically about the 
F-35 and Air Force basing decisions for the F-35. General Field, my 
question to you is this: When making F-35 basing decisions, how much 
weight will the Air Force place on bases' current missions and the 
expertise they possess from conducting those missions when determining 
where to base the F-35? What will drive the Air Force's basing 
decisions for future missions, specifically the F-35?
    General Field. The Air Force strategic basing process begins with 
criteria development, which outlines basing requirements. Mission is 
one of (normally) four categories of criteria. The mission category is 
comprised of elements specific to the weapon system being considered 
for basing. Each element is weighted based on their relative importance 
to the mission. The mission elements address requirements unique to 
that weapon system, not necessarily current missions at a particular 
location, or resident expertise. Regarding the F-35A, criteria for 
future training basing decisions will be reviewed and updated as 
necessary, but is not expected to change markedly.
    The strategic basing process is requirements-driven. In the case of 
the F-35A, future basing decisions will be based upon the aircraft 
delivery schedule and the potential for foreign military sales (FMS) of 
F-35A aircraft. The Air Force anticipates a future need to identify a 
long-term FMS location for F-35A training, but that is dependent upon 
future foreign sales.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. VEASEY

    Mr. Veasey. This question is for all of the flag officers. It is 
clear that the world is getting more dangerous, not less. The situation 
with North Korea makes that very clear. Iran is moving toward a 
potential nuclear weapon. We know that Russia and China are developing 
advanced stealth fighters and proliferating advanced surface-to-air 
missile systems. Can you discuss the importance of the advanced stealth 
capability that the F-35 will give us and our allies in the future to 
meet the increasing threats around the world.
    Mr. Sullivan. We have not conducted the work necessary to answer 
this
question.

    Mr. Veasey. This question is for all of the flag officers. It is 
clear that the world is getting more dangerous, not less. The situation 
with North Korea makes that very clear. Iran is moving toward a 
potential nuclear weapon. We know that Russia and China are developing 
advanced stealth fighters and proliferating advanced surface-to-air 
missile systems. Can you discuss the importance of the advanced stealth 
capability that the F-35 will give us and our allies in the future to 
meet the increasing threats around the world.
    Admiral Skinner and Admiral Moran.
    <bullet>  F-35C offers the first 5th generation fighter aircraft to 
the Navy carrier air wing and brings with it the ability to effectively 
engage and survive a wide range and threats, both air and surface, in 
contested airspace. It provides a ``day-one'' strike capability 
enabling tactical agility and strategic flexibility required to counter 
a broad spectrum of threats and win in operational scenarios that 
cannot be addressed by current legacy aircraft, including operations in 
an anti-access/area denied environment.
    <bullet>  Key additive capabilities that F-35C will bring include 
very low observable stealth characteristics and fused active and 
passive sensors that will enhance the inherent stealth design. These 
fully integrated capabilities will allow F-35C to retain a `first 
detect/first shot' capability throughout the battlespace. F-35C's 
survivability and lethality will fully integrate with the other Navy 
Carrier Strike Group assets and provide increased real-time situational 
awareness to all other networked assets. As such, F-35C offers 
complementary, additive capability to F/A-18E/F in numerous mission 
areas.
    <bullet>  A force equipped with F-35C aircraft enables combatant 
commanders to attack targets day or night, in all weather, in highly 
defended areas of joint operations. Target set includes: fixed and 
mobile land targets; enemy surface units; and air threats (including 
advanced cruise missiles).
    <bullet>  F-35C will supplant some of the aging Navy TACAIR 
inventory by replacing early blocks of the F/A-18E/F and legacy F/A-18C 
aircraft. F-35C procurement remains a key element of the Navy's strike-
fighter force mix.

    Mr. Veasey. Lieutenant General Schmidle, can you provide the 
Subcommittee an update on the F-35B STOVL variant's progress in the 
test program and discuss why you and the Commandant believe this 
aircraft is so critical to the Marine Corps'
future?
    General Schmidle. In 2011 and 2012, The F-35B test program made 
significant progress and has demonstrated key capabilities that confirm 
the aircraft will meet our requirements. As of 17 May 2013, the F-35B 
has conducted 1,129 test flights for a total of 1,588.1 test flight 
hours, and has successfully completed initial ship trials, air start 
testing, and released both precision and air-to-air weapons. The 
testing of STOVL performance capabilities continues to expand the 
envelope resulting in our first operational vertical landing in March 
2013 at MCAS Yuma, Arizona.
    The Marine Corps' transition to the F-35B STOVL is well under way 
with the establishment of VMFAT-501, the Fleet Replacement Squadron, 
and VMFA-121, the first tactical squadron. VMFAT-501 currently executes 
a full training schedule for F-35B transition pilots and maintainers. 
VMFA-121, which stood up in November 2012, now has 4 F-35Bs and will be 
fully outfitted with 16 F-35Bs by this fall.
    The F-35B supports the rapidly changing nature of expeditionary 
operations by providing flexible basing options that allow tactical 
aircraft to improve responsivenes and increase sortie generation rates. 
The value of STOVL has been demonstrated repeatedly, most recently in 
combat operations ashore, through the use of forward operating bases 
(FOBs) in Iraq and Afganistan, as well as during embarked operations 
throughout Central Command's Area of Responsibility.
    Based on the testing completed to date we are confident the Marine 
Corps' requirement for one tactical aircraft type, capable of multiple 
missions, providing the MAGTF with flexible expeditionary basing and 
the superior technology needed to dominate the fight is the F-35B. 
There are no alternatives to the F-35B that support the full range of 
crisis response obligations of the United States Marine Corps.
    Mr. Veasey. This question is for all of the flag officers. It is 
clear that the world is getting more dangerous, not less. The situation 
with North Korea makes that very clear. Iran is moving toward a 
potential nuclear weapon. We know that Russia and China are developing 
advanced stealth fighters and proliferating advanced surface to air 
missile systems. Can you discuss the importance of the advanced stealth 
capability that the F-35 will give us and our allies in the future to 
meet the increasing threats around the world.
    General Schmidle. The F-35's low observable survivability, powerful 
integrated sensor suite, fused information displays, interoperable 
joint connectivity, precision weapons suite, and self-protect anti-air 
weapons, is a total package of capabilities that will revolutionize our 
Naval Air combat power in all threat and operational environments. The 
advanced fifth-generation stealth capability allows our aviation 
elements to operate in threat environments not compatible with fourth-
generation aircraft without extensive and intensive electronic warfare 
augmentation. By using the F-35 in these high threat environments we 
reduce exposure, increase survivability, and improve overall mission 
effectiveness with tailored and precision application.

    Mr. Veasey. Rear Admiral Moran, can you speak to the additional 
capability the F-35 will bring to the fleet and to the program's 
importance to the Navy's Tactical Aviation recapitalization efforts?
    Admiral Moran. The F-35C provides a 5th generation fighter aircraft 
to the Navy carrier air wing and brings with it the ability to 
effectively engage and survive a wide range of threats, both air and 
surface, in contested airspace. It provides a ``day-one'' strike 
capability enabling tactical agility and strategic flexibility required 
to counter a broad spectrum of threats and win in operational scenarios 
that cannot be addressed by current legacy aircraft, including 
operations in an anti-access/area denied environment.
    F-35C's 5th generation survivability and lethality is enhanced by 
very low observable stealth characteristics, fusion of onboard and off-
board passive and active sensors, and real-time integration with other 
F-35Cs and Navy assets, which provide a ``first detect/first shot'' 
capability throughout the battlespace. The F-35C will provide a 
significant additive value when brought to bear with the networked 
fighting concepts of the U.S. Navy Carrier Strike Group and in a joint/
combined warfighting arena.

    Mr. Veasey. Lieutenant General Davis, affordable F-35 
recapitalization is dependent on capturing economies scale as quickly 
as possible by increasing production as quickly as possible. It finally 
appears that the Department has stabilized the production rate for the 
F-35 program and is committed to increasing the ramp rate beginning in 
Fiscal Year 2015. Contrary to the public perception, I understand that 
unit costs have been coming down year-over-year. In fact, unit costs 
have come down more than 50% from LRIP 1 through LRIP 5. Furthermore, 
it has been brought to my attention that the projected unit cost per 
aircraft for the F-35A CTOL variant in Fiscal Year 2018 is projected to 
be approximately $75 million in Fiscal Year 2012 dollars ($85 million 
in then-year dollars) if the current production profile is maintained.
    Can you confirm this for the Subcommittee?
    General Davis. Based on the current production profile, the 
estimated unit recurring flyaway cost (URF) for the F-35A will be 
approximately $87 million (TY$) in FY18. The URF cost includes the 
airframe, electronics, engine and engineering change orders. The 
estimated flyaway cost is approximately $96 million (TY$) in FY18. The 
flyaway cost adds in non-recurring and ancillary equipment costs. The 
F-35A unit cost is subject to change if the U.S. Services or partner 
nations adjust their procurement profiles.

    Mr. Veasey. This question is for all of the flag officers. It is 
clear that the world is getting more dangerous, not less. The situation 
with North Korea makes that very clear. Iran is moving toward a 
potential nuclear weapon. We know that Russia and China are developing 
advanced stealth fighters and proliferating advanced surface to air 
missile systems. Can you discuss the importance of the advanced stealth 
capability that the F-35 will give us and our allies in the future to 
meet the increasing threats around the world.
    General Davis and General Field. Since World War II, the U.S. has 
relied on its ability to control the skies over the battlefield, 
protecting our forces and holding any adversary's targets at risk. Our 
potential adversaries are keenly aware of the importance of air 
superiority to our nation's way of war. This is why the development and 
proliferation of weapon systems that contest our asymmetric advantage 
in the air are increasingly prevalent. For the past 30 years, our 
fighter fleet remained ahead of this evolving threat, superbly 
performing all its missions and supporting the joint warfighter in 
operations such as EL DORADO CANYON, DESERT STORM, ALLIED FORCE, 
ENDURING FREEDOM and IRAQI FREEDOM. However, even during these 
conflicts we sometimes faced threat systems that posed a significant 
threat to our legacy fighter fleet. For example, during the first days 
of DESERT STORM only our fleet of F-117 stealth fighters was able to 
safely operate and survive in the highly contested skies over Baghdad.
    We believe that air superiority remains an imperative when fighting 
any adversary and maintaining the ability of our aircraft to penetrate 
and persist in contested environments is vital to the joint warfighter. 
As you mention, the threats we may face continue to evolve in 
technology and complexity. Potential adversaries are acquiring advanced 
fighters on par with or better than our legacy fleet, developing 
sophisticated and networked early warning radar surveillance systems, 
and fielding surface to air missile systems with increasing range and 
lethality. These capabilities all work together to create advanced, and 
extremely dangerous, integrated air defense systems (IADS). These anti-
access/area denial environments seriously challenge our ability to gain 
air superiority and hold targets at risk. We already face this 
challenge in some parts of the world and as you said, and these threat 
environments will continue to expand as these systems proliferate.
    Our legacy fleet is approaching the limits of capability 
modernization that permits them to survive and operate in these 
environments--they simply do not have the advanced stealth capability 
required to defeat the emerging threats. Only our fifth generation 
fighter fleet's combination of advanced stealth, precision weapons, 
unmatched electronic warfare systems, fused multi-spectral battlespace 
awareness, combat identification systems, maneuverability, and speed 
has the ability to operate and survive in these advanced threat 
environments. All these capabilities inherent in the F-35, particularly 
its advanced stealth properties, ensure the U.S. and our allies have an 
air superiority advantage, and will enable our combatant commanders to 
bring the full spectrum of capabilities of the joint force to the 
fight.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
